<html>
<title> - Truth, Reconciliation, and Healing:Toward a Unified Future</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






116th Congress                                                             Printed for the use of the

1st Session                                          Commission on Security and Cooperation in Europe



                                                         
             Truth, Reconciliation, and Healing: Toward a Unified Future
                             








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                         JULY 18,2019
                                      

                                        Briefing of the

                      Commission on Security and Cooperation in Europe
______________________________________________________________________________________________

                                    WASHINGTON:2021
                                          
                                          
                                          
          Commission on Security and Cooperation in Europe                                     
                       
                   234 Ford House Office Building
                          Washington, DC 20515
                              202-225-1901
                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8f9f8f89ac818d8580c28483999f89c28b839a">[email&#160;protected]</a>
                          http://www.csce.gov
                            @HelsinkiComm
                            
                                                          

                 Legislative Branch Commissioners

              HOUSE                               SENATE
ALCEE L. HASTINGS, Florida            ROGER F. WICKER, Mississippi,
          Chairman                             Co-Chairman
JOE WILSON, South Carolina            BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama             JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri            CORY GARDNER, Colorado
STEVE COHEN, Tennessee                    MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania      JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina        THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin                    TOM UDALL, New Mexico
MARC VEASEY, Texas                  SHELDON WHITEHOUSE, Rhode Island
                       

                 Executive Branch Commissioners

            DEPARTMENT OF STATE to be appointed
            DEPARTMENT OF DEFENSE to be appointed
            DEPARTMENT OF COMMERCE to be appointed





ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 57 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is an independent U.S. Government commission 
created in 1976 to monitor and encourage compliance by the 
participating States with their OSCE commitments, with a particular 
emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.



 
Truth, Reconciliation, and Healing:Toward a Unified Future



                             July 18, 2019


                                                                        Page
                              PARTICIPANTS

    Erika B. Schlager, Counsel for International Law, Commission on 
Security and Cooperation in Europe ...................................... 1

                                                                           

    Dr. Gail C. Christopher, Founder, Ntianu Center; Chair, Board of 
the Trust for America's Health .......................................... 2

                                                                            

    Dr. Mischa E. Thompson, Director of Global Partnerships, Policy, 
and Innovation, Commission on Security and Cooperation in Europe ........ 4

                                                                             

    Ambassador Stuart Eizenstat, Senior Counsel, Covington & Burling 
LLP ....................................................................  6 

                                                                             

    Hon. Gwen Moore, Commissioner, Commission on Security and 
Cooperation in Europe .....................................................7

                                                                             

    The Hon. Tracy Tansia Bibo, former City Councilor, Liedekerke, 
Belgium ....................................................................8

                                                                               

    Councilor Don Ceder, Municipal Councilor, City of Amsterdam, the 
Netherlands ............................................................. . 9                  

                                                                                

    Hon. Benjamin L. Cardin, Ranking Member, Commission on Security and 
Cooperation in Europe ...................................................  12

                                                                               

    Dr. Diane Orentlicher, Professor of International Law, American 
University ................................................................ 13

                                                                                 

                                APPENDIX

    Prepared statement of Dr. Gail C. Christopher .......................... 27



    Prepared statement of Ambassador Stuart Eizenstat ....................... 35



    Prepared statement of Hon. Tracy Tansia Bibo ............................ 61



    Prepared statement of Dr. Diane Orentlicher............................... 65                           








Truth, Reconciliation, and Healing:Toward a Unified Future




                              ----------                              

                             July 18, 2019




    The briefing was held at 10:04 a.m. in Room 2167, Rayburn House 
Office Building, Washington, DC, Dr. Mischa E. Thompson, Director of 
Global Partnerships, Policy, and Innovation, Commission on Security and 
Cooperation in Europe, presiding.
    Panelists present: Erika B. Schlager, Counsel for International 
Law, Commission on Security and Cooperation in Europe; Dr. Gail C. 
Christopher, Founder, Ntianu Center; Chair, Board of the Trust for 
America's Health; Dr. Mischa E. Thompson, Director of Global 
Partnerships, Policy, and Innovation, Commission on Security and 
Cooperation in Europe; Ambassador Stuart Eizenstat, Senior Counsel, 
Covington & Burling LLP; Hon. Gwen Moore, Commissioner, Commission on 
Security and Cooperation in Europe; The Hon. Tracy Tansia Bibo, former 
City Councilor, Liedekerke, Belgium; Councilor Don Ceder, Municipal 
Councilor, City of Amsterdam, the Netherlands; Hon. Benjamin L. Cardin, 
Ranking Member, Commission on Security and Cooperation in Europe; and 
Dr. Diane Orentlicher, Professor of International Law, American 
University.


    Ms. Schlager. Good morning, ladies and gentlemen. Welcome. My name 
is Erika Schlager, and I'm pleased to open ``Truth, Reconciliation, and 
Healing: Toward a United Future,'' a briefing hosted by the U.S. 
Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission.
    For those who may not know us, the Helsinki Commission is an 
independent U.S. Government agency focused on human rights, economic 
cooperation, and military security in and among the 57 North American, 
European, and Asian countries that make up the Organization on Security 
and Cooperation in Europe--the OSCE. Priorities of the commission 
include fostering safe, equitable, and inclusive societies, and 
advancing human rights at home. To that end, the commission has worked 
closely with the OSCE and the OSCE Parliamentary Assembly to secure a 
democratic future for diverse and vulnerable groups across Europe and 
North America, including Romani and Jewish populations, national 
minorities, and migrants.
    The bicameral and bipartisan commission is currently chaired by 
Congressman Alcee Hastings. We hope to be joined today by Senator Ben 
Cardin and Sheila Jackson Lee, 2 of our 18 congressional commissioners. 
As you may have seen coming into the room, there is a lot going on on 
the Hill today, so we are hopeful that they will be able to join us. 
Senator Ben Cardin serves as the OSCE's Special Representative on Anti-
Semitism, Racism, and Intolerance. Representative Sheila Jackson Lee 
serves on the OSCE Parliamentary Assembly Ad Hoc Migration Committee.
    The Helsinki Commission also supports OSCE institutions, such as 
the OSCE High Commissioner on National Minorities, the Office for 
Democratic Institutions and Human Rights, and the Representative on 
Freedom of the Media. Next week the Helsinki Commission will welcome 
the OSCE Representative on Freedom of the Media Harlem Desir for a 
public hearing. And this week, the High Commissioner on National 
Minorities Lamberto Zannier is in the United States and, among other 
things, will be discussing with world leaders some of the issues that 
we will be focusing on today.
    In March, at an event focused on the abuse and use of historical 
legacies for political purposes and the tensions this can produce, the 
OSCE High Commissioner said, ``History and memory have always been 
sensitive issues, but it is increasingly apparent that there are very 
real security implications. Memory politics are part of identity 
politics, and we are witnessing firsthand how they can drive wedges 
between communities in countries across the world and be exploited by 
outside forces. Myths and memories are an integral part of ethnic and 
national identities that determine not only who we are, but where we 
are going.'' Today we will attempt to discern what paths many of our 
societies are on by examining some recent efforts to address past 
atrocities and injustices, and what we can learn from those efforts.
    So I want to thank all of you for being here. We are incredibly 
privileged to have a panel of people to speak to this issue that have 
enormous expertise grappling with this issue from so many different 
perspectives. All of their biographies are in the pamphlets that you 
received coming in the door. They will be posted to our website as 
well.
    I will turn to my colleague, Dr. Mischa Thompson, the Director of 
Global Partnerships, Policy, and Innovation, to chair the briefing. But 
I will take the privilege and honor of introducing our very first 
speaker, a luminary whose life's work has been to empower people and to 
see beyond the mythology of race and to heal societal wounds.
    Thank you, Dr. Gail Christopher.
    Dr. Christopher. Thank you very much. I am honored to be here and 
I'm so pleased that this important briefing is happening in this moment 
in time. I am going to digress a bit from my written comments, but you 
have them. I was asked to share lessons learned. And I will start with 
the most fundamental lesson that we learned in launching an adaptation 
of the truth and reconciliation concept here in this country, in 
America. And the most fundamental lesson that we learned is that for 
America, reconciliation is probably not the right frame.
    Our frame is transformation and healing. And I say that because to 
reconcile suggests that we are coming back together. And America was 
never together, in the sense that we were founded, and this country was 
built over two and a half centuries, with the deeply embedded fallacy 
of a hierarchy of human value, that some human beings just simply don't 
have value. And so if we are realistic about unifying and bringing our 
country together, we have to address that fundamental belief system. It 
still lives today. It is being reignited today.
    There is a book out now called ``White Fragility,'' and it talks 
about the emotional defensive guilt and almost hysterical responses 
that some people have in the face of working on issues of racism. I 
would retitle it often white ignorance, and ignorance of many of us who 
don't understand that our legacy of believing in a system of hierarchy 
and privilege was very deliberately manipulated and maintained for 
centuries. And many of us don't even know that we've internalized that 
belief. So healing and transformation are critical frames for our work. 
And I believe that applies not just here, but perhaps in many other 
places around the world.
    I actually have found that racism, anti-Semitism, religious bias, 
extremism, xenophobia--they all have their root in this fundamental 
fallacy of a hierarchy of human value. And if you're going to change 
behaviors over the long haul it's by changing consciousness and 
changing beliefs. So the other lesson I would share is, well, how do 
you do that? And one of the ways we learned to do that effectively is 
by bringing people together. And research really supports that it is 
through direct interaction with the perceived ``other'' that our biases 
and our deeply held misconceptions can be challenged.
    And so we're working with many people around the country to equip 
them with the skills and the capacities to bring diverse people 
together and deliberately, in face-to-face interactions, to help them 
develop the skills and the capacities to see themselves in the face of 
the other. Albert Einstein is known for many things. One of the things 
is that he was a strong advocate for justice and civil rights. And he 
said we as a people must learn to see ourselves in the face of the 
other. When we have developed that capacity for compassion and empathy 
and relatedness, we will behave differently, and we won't allow 
violations of our fundamental humanity.
    Twenty-first century science has proven that the antiquated notion 
of separate races and a separate hierarchy of identity--that it just 
has no basis in science whatsoever. And yet, it's being reignited in 
this 21st century. We have to say no to that. We have to begin to 
understand that we are, indeed, one extended human family. And from 
that perception, we have to create policies and practices that honor 
that truth. So when we say truth, racial healing and transformation, it 
is the truth of our interrelated connection as a human family.
    One of the best ways to change hearts and minds is through 
narrative. This fallacy of a hierarchy of human value was created by 
narrative. It actually launched the entertainment industry, the 
Hollywood industry, this false narrative of a hierarchy of human value. 
I highly recommend a new book by Professor [Henry Louis] Gates, which 
is called ``Stony the Road.'' And it documents and relays in the most 
comprehensive way the story of how the narrative of human hierarchy was 
deeply established after the Civil War and was used to turn back the 
legislative victories of Reconstruction. And we live with that 
narrative today.
    Most recently, five organizations have come together. They are 
primarily health organizations. And that's the other lesson I want to 
leave you with too, is that the cost of racism, xenophobia, anti-
Semitism--the cost of extremism, these costs are health costs. And they 
affect us physically, psychologically, emotionally. They trigger our 
stress responses, whether we're on the giving or the receiving end. And 
it leads to vulnerability to disease. And so our approach is being 
described as Rx, or prescription racial healing. And we have five major 
national organizations that reach millions of people who are working 
very hard to accelerate a national mobilization campaign to end racism.
    And this is the time. We must do this now. Our security as a 
nation, I believe our security as a global family is at risk if we 
don't put an end to the notion of a hierarchy of human value, because 
it fuels extremism. And extremism suggests that your existence is a 
threat to my existence. And it opens the door for violence and cruelty 
that are almost--actually, that are unspeakable.
    And so I welcome your questions as the panel proceeds, but I want 
to say that our work is to create a new human story to correct the 
fallacy, and to bring us together as a human family and say No to the 
absurdity that's happening in our country today, that is deliberately 
dividing us and pushing us into factions, and sometimes even 
unconsciously knowing that we're building on a legacy of a belief in a 
hierarchy or human value.
    Thank you.
    Dr. Thompson. Thank you, Dr. Christopher. I would now introduce 
Ambassador Stuart Eizenstat, a partner at Covington & Burling, who 
heads the firm's international practice. But for many people, he's 
actually known for his over a decade and a half of public service over 
three U.S. administrations, with key positions including chief White 
House domestic policy advisor for President Jimmy Carter, U.S. 
Ambassador to the European Union, and Undersecretary for Commerce and 
the State Department, as well as the Deputy Secretary of the Treasury. 
However, for many, he is really known for working to provide belated 
justice for victims of the Holocaust and other victims of Nazi tyranny 
during World War II, which was primarily done through his leadership as 
a Special Representative of the President and Secretary of State on 
Holocaust-era issues.
    Ambassador Eizenstat.
    Amb. Eizenstat. Thank you, Dr. Thompson. It's an honor to be here. 
And I have testified many times before the Helsinki Commission, which 
is inspired by the Helsinki Accords of 1975. And that, in turn, 
inspired President Carter's human rights policy, in making that a 
centerpiece of his foreign policy, which I describe in my new book, 
``President Carter: The White House Years.'' But I was asked today to 
testify about our Holocaust work, and how that dealt with 
reconciliation.
    In dealing with the Holocaust, the greatest genocide in history, we 
combined direct payments to victims together with a historical 
examination of its dimensions and lessons. I've negotiated $17 billion 
in recoveries for Holocaust survivors who suffered under the Nazis. 
Eight billion as a U.S. Government representative under Clinton and 
Obama administrations and 9 billion [dollars] as the chief negotiator 
for the Jewish Claims Conference in our annual negotiations with 
Germany. These cover everything from forced enslaved labor by German 
and Austrian companies, unpaid insurance policies by major European 
insurers who refused to pay beneficiaries on the ground that the owners 
didn't pay their premiums when they were in Auschwitz, Swiss franc bank 
accounts hidden from their owners after the war, deportations by the 
French railway, communal property--churches, synagogues, schools, 
community centers, and even cemeteries--which were confiscated by the 
Nazis and then nationalized by the postwar communist governments in the 
east bloc, and return of private property, particularly in Austria.
    It's important to understand that on the payment side, those are 
made to direct victims. And heirs are paid only if there were clearly 
identifiable assets--like bank accounts, insurance policies, artwork, 
books, cultural objects, and real property that can be directly traced 
to their relatives. We also created institutions of remembrance. For 
example, in my recommendation to President Carter, also described in my 
book, in 1978, I recommended creating a Presidential Commission on the 
Holocaust headed by Eli Wiesel. And they, in turn, recommended what is 
now the U.S. Holocaust Memorial Museum, 50,000 visitors--50 million 
visitors--excuse me--have come since it was opened in 1993. Three-
quarters of them non-Jews. And it is a way of telling a story of 
remembering and learning lessons.
    In our German Slave Labor Agreement, which was a 10 billion 
deutschmark, $5 billion agreement, several hundred million dollars were 
set aside for a new German foundation called Remembrance Responsibility 
in the Future to support, as they have done to this day, projects 
devoted to tolerance and justice. As part of the Swiss bank 
negotiations, I chaired a U.S. Government interagency task force which 
prepared a report on the role of Switzerland and the Swiss National 
Bank as so-called neutrals during the war, exposing the fact that they, 
in fact, were not so neutral at all. This led Switzerland for the first 
time to create its own historical commission, under Professor Jean-
Francois Bergier, that examined in an honest and candid way Swiss 
dealings with Jewish refugees, often blocking them from coming in, and 
the value of assets that they took into their national bank, and 
converted them into Swiss francs, which helped the Germans continue 
their war effort.
    We did a second report on the role of a dozen other neutral 
countries, several of whom created their own historical commission. 
There were several unique features to the direct payments that have 
been made to survivors. The first is that most came from class action 
suits in U.S. courts against private corporations. It's the first and 
only time in history that private corporations paid for their actions 
in wartime--not governments, but private corporations. Private banks, 
slave labor companies, and banks that took Holocaust assets and never 
disclosed them. Second, it demonstrated the role of the U.S. as a force 
for good. We acted as a mediator to settle Swiss, German, Austrian, and 
French lawsuits. We had to earn the trust of the plaintiff's attorneys, 
Jewish organizations, and Holocaust groups, and foreign corporations. 
And the Swiss bank account, U.S. District Court Judge Edward Korman 
finalized the negotiations I began.
    Third, we had to employ novel principles since we were dealing, in 
this case, with fifty years after the war, the difficulty of finding 
proof that you were a slave in forced labor. And we employed a concept 
called rough justice for ease of administration. So for example, for 
slave laborers, most but not all Jews were being worked to death. We 
looked at Red Cross and German concentration camp lists. And anyone who 
was in a concentration camp, even for a day, was assumed to be a slave 
laborer and got a payment of $7,500 per person, regardless of the 
length of time they were there. For forced laborers, most non-Jews from 
Poland and other occupied countries, who were considered an asset by 
the German State for production while men up to the age of 40 were 
fighting the war, they were paid $2,500 per person, again, regardless 
of the time they worked.
    Fourth, Jews were not the sole beneficiaries, indeed, in the German 
slave- and forced-labor cases. Almost 80 percent of the payments went 
to non-Jewish forced laborers who had never been part of any 
compensation program before. Fifth, in a Swiss bank case that was 
settled for $1 1/4 billion, it was begun by Edgar Bronfman, chairman of 
the World Jewish Congress, and myself while I was U.S. Ambassador to 
the EU, but also Special Representative to the President and Secretary 
of State on Holocaust Issues. And here's how it happened--if you're 
interested in a career in journalism--there was a Wall Street Journal 
front page story in 1994 about so-called dormant Swiss bank accounts--
accounts that had been created by Jews trying to hide money from the 
onrushing Nazi armies. And then after the war, if they survived--or if 
they didn't, their heirs--went to those banks and they said: We have no 
record of such accounts. In fact, they drew down for 50 years by 
monthly charges into their profit statement.
    And I brought that Wall Street Journal article to the Basel 
Switzerland Swiss Bank Association. I said, is it true? Did you banks 
do this? Yes, unfortunately, a few did. We found 732 accounts. We're 
going to pay $32 million in plussed up interest. We didn't trust them. 
Paul Volcker was appointed, the former head of the Fed. For 5 years he 
examined these records. There weren't 732. There were 54,000 accounts 
possible, and 21,000 certain accounts. And Judge Korman helped me 
settle these cases for, again, $1 1/4 billion, not $32 million. Two-
thirds of that went to actual owners of the accounts, and the balance 
to slave labor cases, to others who had transacted business through 
Switzerland.
    Nazi-looted art is a particularly fascinating and ongoing issue. 
Look at the art section of The New York times any day of the week and 
you'll find an article about this. The Nazis stole a staggering 600,000 
artworks, and the allies were aware of the theft, although not the 
dimensions. In the London conference of--declaration of 1943, they 
warned neutral countries not to trade in this art. At the last stages 
of the war, the U.S. Army, as they were moving east to Berlin, embedded 
art experts and historians--so-called Monuments Men. And their job was 
to collect as many of these looted arts as they could. They collected 
hundreds of thousands, to put them in collection facilities in post-war 
Germany, and then return them from the countries from whom they were 
stolen, because no one in the chaos of the war could identify the 
individual owners, under the assumption that those countries would 
create their own claims processes.
    Most did not and incorporated them. You go to the Louvre, Jue de 
Paume, all the great museums, a lot of the art there is looted. How did 
this then come to the fore during our Clinton administration? Again, 
this came because of the work of scholars and journalists, who 
uncovered these stories. It came to our attention, and so in 1998, at 
the State Department in Washington, I negotiated with 44 countries the 
Washington Principles on Nazi-Looted Art, in which these countries 
agreed to open their archives, research the provenance of their art, 
resolve any claims in a just and fair way without litigation. And that 
was enhanced by the 2009 Terezin Declaration, which I also negotiated.
    And here's a very important point: Neither the Washington 
Principles nor the Terezin Declaration were legally binding. They were 
aspirational. But they have profoundly changed the way in which the art 
world does business. Now people look at the provenance of their art 
when they're buying it. Were there any gaps during the Nazi era? 
Thousands of artworks have been returned. Five countries have set up 
dispute resolution processes to resolve claims. Christie's and 
Sotheby's, the major art auction houses, now have full-time staffs and 
won't sell or auction art that has suspicious origins. Christie's has 
resolved 100 cases in this respect. It's really a story of what you can 
do with nonbinding moral principles.
    Congress has also played a role in assisting our efforts at 
Holocaust justice. Senator Al D'Amato held Senate Banking Committee 
hearings to shine a harsh light on Swiss bank deceptions. Congressman 
Jim Leach in this very building--then the chair of the House Banking 
Committee--held hearings and gave visibility to looted artworks and 
other assets. Congress also passed, in 2016, the so-called Holocaust 
Expropriated Art Recovery Act to prevent American museums from using--
as they were doing, totally contrary to the spirit of the Washington 
Principles--technical defenses, like the statute of limitations, to bar 
claims. Well, how could you file a claim when you didn't even know if 
the art existed? And Congress helped remedy that in 2016.
    And more recently, literally last year 2018, Congress passed the 
Justice for Uncompensated Holocaust Survivors Act, or the JUST Act, 
which will require by this November 2019 that the State Department will 
send a report on the extent to which the countries who signed the 
Terezin Declaration, all 46 of them, actually have held it. And I hope, 
Dr. Thompson, that Congress will hold hearings on that report so 
nations which signed the Terezin Declaration will be held to account. 
Last, we did not begin this restitution effort, although we gave it 
acceleration in the modern era. It actually began in 1952 with the 
Luxembourg Agreement between then-West Germany and Israel, with direct 
payments to survivors.
    I'll close by saying, and I hope that panel will discuss it, there 
are other precedents. The South African Truth and Reconciliation 
Commission established by Nelson Mandela was not a compensation 
program. It was a program in which 20,000 victims of Apartheid were 
asked to come forward, and the perpetrators on an amnesty provision, to 
try to heal, Dr. Christopher, that divided nation. And last, something 
much less well known, is after the reuniting of Germany after the cold 
war there were 140,000 prisoners who had been political opponents of 
the communist East German regime. And after the war, when Germany was 
reunited, the new reunited Germany paid those 140,000, 300 euros per 
month for each month in which they were in prison.
    So all of these are ways of dealing with historic injustices. But 
one of the lessons is, they go to direct victims and only heirs where 
there are direct heirs who can trace assets to the relatives who were 
killed.
    Thank you very much.
    Dr. Thompson. Ambassador Eizenstat, thank you very much for that. 
We are very pleased to have with us now one of our Helsinki 
commissioners, Congresswoman Gwen Moore.
    Ms. Moore. Thank you so much, Dr. Thompson. And thank you to our 
esteemed panel for appearing here today. It is certainly my loss that I 
was unable to get here in time to hear from Dr. Christopher, because 
while we talk about the need for truth and reconciliation in the OSCE 
countries over in Europe, we very much need to tend--to clean our own 
backyard. And here on this continent, I am very pleased that Canada has 
established a truth and reconciliation process as part of the overall 
holistic and comprehensive response to the Indian residential school 
legacy, which has a very painful and damaging residual impact on our 
Native community here in the United States.
    And certainly we see that in this very active campaign for 
president on the Democratic side that the contestants are talking about 
reparations. And I think that before you really talk about reparations, 
Dr. Christopher, you have to talk about truth and reconciliation. I 
mean, you cannot correct what you cannot confront. And there are so 
many people here in the United States, for example, that think that 
African Americans are doing so much better. We've had our first black 
President of the United States. They see black people serving in 
Congress. And that is assuming that the legacy of slavery has been 
healed.
    Dr. Eizenstat, I did get here in time to hear many of your 
comments, and I'm looking forward to reading your book. And I'm so 
looking forward to hearing from Tracy Bibo, Don Ceder, and Dr. 
Orentlicher. And thank you all for showing up for this extremely 
important briefing--all of you all in the audience. You're not just in 
the audience, you're participants in the healing process. And it's 
encouraging to see young people here, because when we talk about truth 
and reconciliation and healing toward a unified future, you can't have 
a future without young people.
    So thank you so much, Dr. Thompson, and I will yield back to you at 
this time.
    Dr. Thompson. Thank you. At this time we will actually introduce 
the former City Councilor of Liedekerke, Belgium, Tracy Tansia Bibo, 
who will appear by video. And she is also listening by phone.
    Ms. Bibo. My name is Tracy Tansia Bibo. Today I'm going to talk 
about reparations and the steps that already have been taken in Belgium 
toward having reparations for what happened during the colonial past in 
Congo. If you want to know more details about the colonial past and the 
colonization of Belgium in Congo, you can read my full statement.
    So Belgium has changed the way it looks at colonization. And this 
happens in the past 10 years. First of all, the generation of people of 
Congolese decent, so people from the Congolese diaspora, the second 
generation that I am part of, are more critical of the past. We talk 
more about it and we are more vocal about it, also because in education 
there has been a lack of teaching this colonial past. And because of 
that, Belgians with Congolese roots ask themselves why their history--
the shared history of Belgium is not represented in classes--in history 
classes, to be more specific.
    The second thing is that there have been a lot of documentaries and 
books that talk about colonization. One of the last documentaries that 
I also took part in as a witness is ``Children of the Colony.'' And 
there, there is the first time that the Belgian TV--the Flemish Belgian 
TV talks about colonization and also lets people of African descent, 
Congolese people, talk about their own experience.
    The third thing is that racism for Belgians of African descent, for 
black people in general is getting worse every year. And every year we 
have--every 2 or 3 years, we have more studies that prove it. And all 
these are the links that this racism--the causes of this racism on 
black people, on Congolese people in Belgium, is due to colonization.
    And the last topic--and then the last point is also the question of 
metis. During colonization, metis children, mixed children, have been 
separated from their black mom and brought to Belgium--so, the children 
of a white Belgian dad and a black mom. And they have been brought to 
Belgium. Because of that, there has been a resolution for the metis 
children. And it was also the first resolution I worked on as a 
parliamentary assistant and a political advisor. The first resolution 
that asked an apology for the wrongdoings to this group. And also, 
talks about reparation for this group.
    So these four points are important. And this is why change has been 
made when we talk about colonization. This is colonization and 
reparation, because a lot of politicians now believe that reparation is 
not about only giving money, but it's about fighting inequalities. It's 
about readjusting inequalities that we have between black people and 
white Belgian people in our country. So it's not about just writing a 
check to the black community or the Congolese community in Belgium. 
This is one of the steps that--the resolution of the metis is one of 
the most important steps that has been taken. However, individual 
politicians are already asking an apology for colonization. And also, 
there is a lot of initiative that has been taken to have hearings, here 
in the Belgian Parliament, to talk about colonization and also to talk 
about reparations. These hearings will be taking place after the 
government in Belgium is formed, because we had elections and now we 
don't have a government.
    So as a Belgian of Congolese descent, I have been working the past 
years on colonization, on reparations. And for me, the message I want 
to send to the members of the Helsinki Commission is that dialogue and 
knowledge about colonization is important.
    Recognition and reparation are the key elements to address the 
historic wrongs, heal the wounds, breach divisions, and build a shared 
future. I believe this is the key to the future where fighting 
inequality--where we fight inequality by understanding and addressing 
the past.
    Okay, I think I passed my minutes, but I want, again, to thank the 
Helsinki Commission for inviting me. And also, if you have any 
questions you can always email me or read my full statement for a 
better understanding of what I've just said.
    Thank you very much.
    Dr. Thompson. And former Councilor Bibo's statement is actually 
included in the folders that you have.
    The Honorable Soraya Post, the former Member of the European 
Parliament, is unfortunately unable to join us today.
    So I would now actually like to introduce Councilor Don Ceder. He's 
a lawyer, Chairman of the Christian Union of Amsterdam, and currently a 
Municipal Councilor for the city of Amsterdam. And we are just very 
honored that he's able to join us all the way from the Netherlands 
today.
    Councilor Ceder.
    Mr. Ceder. Thank you so much, Chairman Hastings, Co-Chairman 
Wicker, the honorable members of the commission, Senator.
    I've heard so much, and I'll just try to build upon that and focus 
it from an Amsterdam perspective. And I'm going to focus on the group 
on which we introduced the bill, which were the descendants of the 
transatlantic slave trade, of which a lot of them are still living in 
Amsterdam because the Netherlands had a lot of colonies in, for 
example, Suriname, the Dutch Antilles. So I'm going to focus on that 
part when it comes to communities and when it comes to reconciliation.
    Thank you for having me here to discuss the issue that's both in 
many ways uncomfortable but also crucial for those that are serious 
about bridging societies and gaps in places that are forged 
historically by also communities that have been wronged in sometimes a 
systematic way. There's a saying in Dutch, and some say that it derives 
from the former colony of Suriname, and it goes as follows: The rocks 
that you leave lying on your path will eventually make your children 
stumble.
    And I think it has a lot of truth to it, especially with the 
hearing today, and where we're talking about truth, reconciliation, and 
healing toward a unified future, because an inclusive society means 
that we make every effort to remove the obstacles between different 
groups within that society and community. And achieving truth, 
reconciliation and healing toward a unified future will only come by 
truly addressing certain toxic legacies on which our cities and nations 
across the world were forged, and truly discussing them, how to address 
that in a just, proportionate, unifying, and a healthy way.
    I'm here, as I said, because I would like to address what we've 
been able to do in Amsterdam by proposing a formal apology bill by the 
city of Amsterdam, because we see that a formal apology for the shared 
past is a mature step to a consolidated shared future in Amsterdam. 
I'll just talk about the background of how we came together and how we 
managed to have a majority that was able to propose the bill. And at 
the end I'll also give some--a few takeaways, and hopefully inspire you 
and politicians locally, but also nationally, to vanguard 
reconciliation in societies that they are active in.
    A few weeks ago a majority of parties in Amsterdam from the city 
council proposed a bill that states that Amsterdam should apologize as 
a city for her part in the history of the transatlantic slave trade. 
What makes this special is that this is not just the work of one party. 
We have a multiparty system in the Netherlands, and this initiative 
came eventually from seven political parties--GroenLinks, the 
Greenlefts, one of the labor parties, the socialist party, the Democrat 
66, and the Christian Union, of which I am the party leader.
    Besides an apology, this bill also proposes scientific research 
that should be conducted to examine the role Amsterdam played in the 
history of the transatlantic slave trade. We feel that in order to make 
an apology that matters, we need to know what we're apologizing for. 
And this investigation should be done within 1 year, as we're set to 
make a formal apology on the symbolic date on the 1st of July 2020, 
which is the Dutch day of remembering the abolition of slavery. It's 
called Keti Koti, which is a Suriname term that means ``the chains are 
broken.''
    There's a lot that we don't know. And that's why we're proposing 
scientific research. But there's also a lot that we do know. And 
although officially slavery was not present in the European part of the 
Netherlands, it was of crucial importance for her colonies. It is 
estimated that in the Netherlands almost 600,000 Africans were enslaved 
and used in the colonies. And for a period in the 17th century, the 
Netherlands was even the greatest, largest trader of slavery between 
West Africa and South America.
    And Amsterdam had a key role in this, because Amsterdam as a city 
bought an interest in the colony of Suriname in 1683. So Amsterdam as a 
city became a member of what was called the Suriname Society, and with 
it one-third owner of the colony of Suriname. And as a co-owner of 
Suriname, the municipality of Amsterdam benefited greatly from a 
profitable colony, using slaves. In addition, Amsterdam has also 
profited--benefited from slavery in the Antilles, and even in the then-
Dutch East Indies.
    In fact, many of the great buildings that we see today in Amsterdam 
have associations with slavery, including the royal palace the dam, 
where the plantation owners of Suriname met regularly. It was during 
this golden age that the Amsterdam stock exchange was established to 
provide merchants with a safe and regulated place where they could buy 
and sell shares. It is still the oldest functioning stock exchange in 
the world. And even though slavery has been abolished since 1863 in the 
Netherlands, the traces remain visible everywhere around the city 
today. And it is ironic that the beautiful city of Amsterdam has a lot 
of dark side, and a dark narrative to it.
    The majority of the city council therefore acknowledges that the 
history of Amsterdam cannot be viewed separately from the continuing 
effects current in this day on the position of descendants of slaves in 
Amsterdam or elsewhere. And why is this apology so important? Because 
Amsterdam hasn't been the first city or entity that has formally 
apologized for their role in the transatlantic slave trade. We've had 
Liverpool apologizing. We've had recently Charleston in the United 
States apologizing. And even whole countries, like Benin and Ghana. And 
in March, even the European Parliament addressed and stated that member 
States should work toward creating a formal apology.
    So why is it so important that Amsterdam did this? It's important 
because of its vanguard role in the Netherlands. The country in itself, 
the Netherlands, has not yet made a formal apology. And chances are 
that that will not be happening soon. And although the Netherlands 
doesn't, for some reason, seem ready for a formal apology, it was local 
politicians that had a vanguard role, and made sure--and took it upon 
themselves that they felt that the formal apology is a right way, a 
proportionate way, and a healthy way to create a stepping-stone toward 
a unified future and reconciliation. It's a symbol, but it's a symbol 
that actually has an effect in creating why we are here today.
    Thorough healing and reconciliation starts with acknowledging pain 
of others. It cannot fully blossom where there's a strong need to 
curate which wrong--which wrongs needs addressing and which not, and 
which pain in the community is viable and which is not. We cannot 
curate these wrongdoings. And therefore, true healing can also start 
when there is a formal apology. Information and education concerning 
this can help because the need to curate who needs--who has been done 
wrong or not stops a lot of the time because of a lack of information 
on these systematic wrongdoings in the past.
    I'm going to come to a few practical takeaways, which I've learned 
from the practical case in Amsterdam, which I think that also here in 
the United States can be of good use. And that's, first of all, the 
first step is make sure--realize that the acknowledgements of wrongs in 
itself isn't just a start to begin healing and reconciliation, but 
often it is an essential part of the healing itself, especially in 
communities that feel that they have been deprived of that 
acknowledgement for many, many generations. And I'm talking now 
specifically of the descendants of those who were enslaved. But you 
have several communities that feel that they have been deprived of a 
formal apology or wrongdoing. And this--and acknowledging the wrongs 
can be--can be a part of reconciliation in itself. And that in order to 
sustain healing, in order to create reconciliation, we need to learn, 
as politicians, as people of influence, the art of acknowledging.
    Second point, we need to realize that acknowledging the pains of 
minority communities will not--will not start by itself. It takes 
people who can articulate, research, and persist in addressing why 
acknowledgement or apology is so important. If truly seeking for 
reconciliation, we need to find these communities, we need to interact, 
and we need to share, and understand, and listen to why acknowledgement 
is important, whether it is in Amsterdam, in the United States, or 
wherever in the world.
    Third, we have to reconsider that reconciliation might in some way 
mean redefining the identity of a city, maybe even a state or a 
country, because place in history in a proper perspective might mean 
that the narratives might need to shift. That isn't, per se, a bad 
thing, but holding on to a narrative that withholds truth from what 
happened to some communities will not work, and even form an obstacle 
in the process of creating a unifying future. So it's also important to 
realize that we might need a new narrative and embrace that.
    Fourth--this is my last point--we need to be able to forge 
politically--political alliances. The bill was proposed because we had 
a majority, but it took a year of preparation and convincing seven 
parties. But not just that--for over 10 years, people from the 
community have been stating that a formal apology should be done and is 
a necessary and proportionate way to create a unifying future. So it 
took more than 10 years. And as a party, as a political system, it took 
us 1 year to form a majority. Being right doesn't mean you have a 
majority, per se. So it's also the art of forming political alliances, 
to making sure that we truly have a unified future. And the patience 
that comes with this might, ironically, be some type of forbearing of 
the unifying future that we're hoping to see.
    In closing, I encourage every lawmaker and politician that is 
serious about reconciliation and unifying to help and remove the stones 
that have been laying on our path for too long, so that we ourselves 
and our children can walk that path, secured and unified, from a shared 
history to a shared future.
    Thank you.
    Dr. Thompson. Hello. We are very pleased to be joined now by 
Senator Cardin.
    Mr. Cardin. Well, first, to Dr. Misha Thompson, we're so proud of 
the work that she does on behalf of the Helsinki Commission. She has 
been an incredible resource we have in dealing with this agenda.
    I just really wanted to come by briefly. I apologize I'm not going 
to be able to stay for the entire briefing. The Senate starts votes at 
11 this morning. But I wanted to underscore how important I believe 
this briefing is. And I want to thank all the panelists that are here, 
for all of your work. I know Stuart Eizenstat the best. So I just want 
to mention the fact that I am involved in politics every day as a 
member of the U.S. Senate, but it was nothing like the politics that 
Stuart had to endure in dealing with restitution issues. And I applaud 
his willingness to take on this incredibly important assignment, and to 
use his best skills for an equitable solution. I just really wanted to 
acknowledge that.
    Truth, reconciliation, and healing. The work that's done here at 
the Helsinki Commission is so critically important, but I never thought 
it would be as important as it is today. Gwen Moore and I were in 
Europe just recently. We had a chance to visit Hungary, a country that 
is not dealing with truth. The monument that was put in their main 
square is a disgrace to the victims of World War II, where Hungary--
which was involved in the murdering of Jews and others through 1944--
refuses to acknowledge its role. They're putting--put a museum to the 
Holocaust that, likewise, does not tell the truth. You can't get to 
reconciliation until you tell the truth. And we see laws in Poland that 
make that more challenging.
    So we have challenges. And I mentioned Hungary and Poland. They're 
not the worst countries, but they're NATO allies. And in the NATO 
charter, they committed to democratic institutions and principles. And 
they're not following that today. We had a meeting in Luxembourg during 
the Parliamentary Assembly that dealt with the rise of hate and lessons 
learned from the past, and what we can do for the future. Well, if you 
look at the circumstances that existed in the 1930s with the rise of 
hate in Europe, you see many of those circumstances today around the 
OSCE region, including in the United States of America.
    That should concern everyone. And that's why these briefings are so 
important today.
    Do I think it will lead to what happened in World War II? No, I 
don't believe that will happen. But I believe people are getting hurt, 
and more communities are at risk, if we don't deal with these 
circumstances. And the way to deal with it is by building coalitions. 
We can't do it one minority group alone. We're all at risk. And we need 
to build those coalitions. We have to invest in education. We've got to 
protect communities. We've got to share best practices. We've got to be 
willing to take action. And we've got to be willing to speak out. Each 
of us are leaders. We have to lead. But we need the information in 
order to do that.
    So we at the commission have been holding hearings. I thank 
Chairman Hastings for the hearings that he's held in the commission. We 
just had one in which Commissioner Gwen Moore chaired the hearing, 
dealing with this issue--briefing today. We need to be prepared. We 
need to be educated. And we need to be organized. And we need to have a 
game plan. And I hope that this briefing will help lead to that. And I 
can assure you that Dr. Thompson, who's my principal staff person on 
this issue, she will continue to help plan on behalf of the Helsinki 
Commission a strategy that will work in the OSCE countries, including 
the United States of America.
    So thank you very much for participating in this and thank you for 
being here. We appreciate it. And I apologize, again. Maybe if the 
Democrats take control of the Senate, I can plan the schedule a little 
better in the Senate. [Laughter.] But right now there is that 
challenge.
    Thank you all very much.
    Dr. Thompson. Thank you, Senator Cardin.
    We will now turn to Dr. Orentlicher, one of the world's leading 
authorities on human rights law and war crimes tribunals from American 
University. Her career includes positions such as Deputy for War Crimes 
Issues in the U.S. Department of State, United Nations Independent 
Expert on Combating Impunity, and a Special Advisor to the High 
Commissioner on National Minorities with the OSCE. Her new book, ``Some 
Kind of Justice: The ICTY's Impact in Bosnia and Serbia,'' is not only 
a timely account of international criminal tribunals and how they 
actually impact communities, I think, but also will help to form the 
foundation of her remarks and possibly offer us a path for the way 
forward, and some lessons learned.
    Thank you.
    Dr. Orentlicher. Thank you, Dr. Thompson and Honorable Member 
Moore. It's a pleasure to be here, and an honor to be at a briefing of 
this commission, which has provided leadership for so long on some of 
the hardest and most intractable but important issues of our time, 
including the one that's the subject of this hearing. As other 
panelists have already acknowledged, and as I think everybody here 
knows, the question of what can be done to heal divisions that are born 
of historic wrongs is both urgently important in many countries, and 
yet has proved agonizingly difficult in so many.
    And parenthetically, when I refer to historic wrongs, I'm really 
referring to the same thing that Ambassador Eizenstat referred to as 
historic injustices, periods in a country's history of grave and 
systemic wrongs of a really epic proportion. And here, we're talking 
about that kind of wrong, committed against members of a group based on 
ethnic, national, religious, or other membership in a group.
    As my predecessor Councilman Ceder indicated, one of the clear 
lessons from experience in many countries that have gone through this 
kind of chapter is that unless they're adequately addressed--however 
difficult it is to do so--historic wrongs leave deep wounds which 
afflict not only the victims, direct and indirect of the wrongs, but 
also afflict a society as a whole. And I think that's the premise of 
this hearing.
    One of the lessons of the field that I've been working in for 30 
years, transitional justice, is that every country has to confront 
these chapters in their past in their own way, in light of their own 
unique experience, but also that we can benefit from mining the 
experience of other countries that have dealt with similar challenges. 
And I think it's in that spirit that I was asked to talk about the 
experience in Bosnia, which I think everybody here knows experienced 
savage, exceptionally brutal ethnic violence, accompanying the breakup 
of Yugoslavia in the 1990s.
    The efforts to provide redress for those injustices and to foster 
reconciliation among citizens of Bosnia who were engaged in vicious 
conflict with each other have been a preoccupation, previously more 
than today, of the international community. And the centerpiece of 
efforts to reckon with that period of violence was the work of the 
International War Crimes Tribunal that Dr. Thompson mentioned. Its 
work, as well as the work of domestic war crimes prosecutions in the 
region, have been vitally important to survivors of ethnic violence. 
And their judgments have been, indeed, very precious to those victims. 
And I could talk about that at length, but that's not the focus of this 
briefing.
    What is important to note is that as important as that effort was, 
it did not foster reconciliation in the region. And we never should 
have expected the work of a criminal court to foster reconciliation. 
And indeed, ethnic tensions are very much at alarming levels and 
continuously rising in Bosnia and elsewhere. One of the most striking 
manifestations of that rising ethnic tension, and a factor that very 
much exacerbates it, has been what I would call, in shorthand, 
``denialism'' about the nature and extent, responsibility for inter-
ethnic violence during the 1990s war.
    And I just want to tick off a few forms of denialism, because it 
takes many forms. The forms that I'm going to mention are peculiar to 
the Bosnia context, but some of them have analogues in many other 
countries. And some of them, I think, will resonate with you based on 
experiences even in this country. Again, I don't mean to imply any 
comparison between that context and ours, but there are some resonances 
that are worth paying attention to.
    So five dominant forms of denialism including the following: First, 
outright denial. Denial, unfortunately by very prominent public figures 
in the region, that members of their own ethnic group even committed 
atrocities against victims belonging to other groups.
    A second, perhaps more common form, is radical minimization of the 
nature and extent of violations committed typically by members of one's 
own ethnic group against others.
    Third is actually justifying the wrongs, however grievous they 
were, by, for example, characterizing what has been legally established 
to be a genocide in Srebrenica--justifying that as an act of self-
defense.
    Fourth, actually celebrating war criminals as national heroes. And 
the fifth form of denialism--and this is not an uncommon one in many 
places in the world--is actually silence. And that's practicing silence 
about wrongs that are so grave and calamitous that they really warrant 
recognition and redress. And certainly, as a number of people have 
talked about, acknowledgement is critically important.
    In my book I talk about the fact that these forms of denial, 
including silence, have been a tormenting source of pain--ongoing pain 
for survivors of ethnic violence from the 1990s. The kind of practice 
of silence, for example, that I'm talking about includes a routine 
refusal of local leaders to even allow survivors to place a modest 
plaque at the site of a detention camp where they were held in brutal 
conditions, and where many of their family members were killed and 
tortured brutally. So there's that kind of practice of silence, as well 
as the other forms of verbal denial that I talked about.
    There have, from time to time, been moments of acknowledgement, 
despite what I--the patterns I've described. And those moments of 
acknowledgement by regional leaders provide a glimpse of the healing 
power of acknowledgment. During periods when there were those more 
significant moments than we've seen recently, the acknowledgment, the 
apologies that were forthcoming, were healing for victims, and were 
quite a powerful form of beginning to repair the social fabric that had 
been so violently rent in the region. But as I talk about at greater 
length in my written remarks, in more recent years the promise of those 
earlier apologies has been really quite radically betrayed in recent 
years.
    On a more positive note, I want to acknowledge that some Bosnians 
have at a grassroots level decided that despite--or perhaps all the 
more importantly, because of--the failure of leadership in 
acknowledgment, they will do what they can where they can to start to 
reach across the ethnic chasm and come together to acknowledge, and 
deal with, and reckon with the violence of the 1990s.
    In closing, I also want to note a few takeaways, somewhat informed 
by the Bosnian experience but also drawing on experience in other 
countries, which I think have some relevance and perhaps can be 
instructive for our context, as well as others. The first one is the 
one that I've already noted, and I believe Councilman Ceder made a 
similar point. And that is that social divisions that have their root 
in historic wrongs that have not yet been addressed really can't mend 
unless there is an honest reckoning, including robust acknowledgment 
and a full-throated, forthright condemnation of the wrong that 
happened, as well as a determination to build on that acknowledgement 
and to address the toxic legacy of the past wrong that hasn't yet been 
adequately dealt with.
    Second, it's important for us to acknowledge--and I think everybody 
here knows this, it's been mentioned by others--efforts to deal with 
that kind of past can be painful and very difficult, as Councilor Ceder 
said, uncomfortable. And sometimes they can be polarizing even. And so 
it's important to approach the task of that reckoning, obviously, with 
great care, as well as courage and perseverance.
    Third--and this really maybe builds on that point about approaching 
these tasks with care--we now have a wealth of social science research, 
some of which Dr. Christopher alluded to, that can help us undertake 
the necessary work of reckoning in a very smart and strategic way. We 
know a lot more than we used to about the psychology of denialism. We 
know a lot more about the social psychology of why people resist so 
much acknowledging historic wrongs, and what it takes, importantly, to 
open minds, to change the way people perceive a challenge.
    Fourth, and related to that, experience and research suggests 
that--and here, I'm very much echoing Dr. Christopher--it's important 
to create opportunities to bring people together--literally, to bring 
people together to look for solutions to these challenges. And as I 
indicated, some local initiatives in Bosnia have done just that.
    Closer to home, I want to just mention as one inspiring example the 
National Memorial for Peace and Justice in Montgomery, Alabama, which 
among other things--I think many of you know the memorial physically 
has pillars for each county in the United States that was the site of 
lynchings. And each pillar is inscribed with the names of known 
victims. One of the things that is really impressive and innovative, 
and I think very smart and wise, is that a duplicate was made for each 
pillar, and is made available to the county that that pillar 
represents. And each county has been invited to claim its pillar. And 
that very process of reaching out, inviting counties to claim their 
pillar, provides an opportunity for meaningful and constructive 
engagement, coming together by local communities to deal with their own 
local chapter of this difficult path.
    Finally, I would note, again, in the sort of broad category of 
smart things we can do to learn from experience, one of the things that 
has proven true in many contexts, including to some extent in the 
Balkans, is that effective media can often dramatically alter public 
perceptions. And I think of a recent example, the streaming of the 
series ``When They See Us,'' Ava DuVernay's series, had a really 
immediate and dramatic impact on public perception.
    And some people asked, Why now? Why is the American public reacting 
so strongly now? We knew about this. We knew the basic facts long ago. 
But the point is that her series helped somehow make people see things 
anew--in a new way, which they hadn't always, and to react to that.
    I'm sorry, I said finally there but this is really my final point, 
and it really builds on what I said earlier. We always have to be 
strategic as well as creative, seizing the full potential of emergent 
opportunities without overburdening them--but seizing them when they 
arise, and also making them happen, as others have said. And often 
there is just a moment that can be very fleeting, when key sectors can 
take a step that was previously inconceivable, as we've seen in recent 
years here taking down Civil War monuments. And a sector of the public 
can take a step that for so long seemed absolutely unimaginable.
    And those steps, when we take them, can pave the way for the next 
step that can be taken. And so we have to keep on being imaginative and 
seizing those moments, and then using them to advance further to the 
next thing that may be possible. The process is a long one, and it's 
often arduous, but we do have to keep at it and keep building on the 
achievement they have. And one of the negative lessons from the Bosnia 
experience is that if you don't build on the advances, you can--you can 
retrogress.
    Finally, in closing, and really in sum, effective measures of 
healing social rifts that are rooted in historic--in great wrongs are 
demanding, and they are necessary. There aren't easy fixes, but there 
are wise ones.
    Thank you.
    Dr. Thompson. Thank you very much. And while I have a number of 
questions, in the interest of time I'm actually going to now turn 
things over to the audience for your questions and comments. And I will 
note that we have an in-house audience here, as well as an online 
audience. And for those who are interested in either submitting 
comments or questions, we have Facebook, that is possible online, as 
well as through our Twitter handle, @HelsinkiComm. So Helsinki C-O-M-M. 
I would ask for persons who are interested in asking questions to come 
to the microphone on the edge here, and please just state your name and 
speak loudly into the microphone.
    So, sir. So, yes.
    Tracy Bibo is actually listening from Belgium in this microphone 
here, so----
    Questioner. Hi. I'm Keenan Keller, House Judiciary Committee.
    Question around this whole issue of denialism, and it's sort of 
generally stated to the panel. What accounts for the resistance of 
governmental entities to confronting the issues of the past, as have 
been defined by several members of the panel? And what's the 
responsibility between private entities and governmental entities with 
respect to spurring that action? For example, Representative Moore 
talked about the activism around H.R. 40 and reparations in the United 
States.
    Mr. Eizenstat very specifically in his testimony distinguished the 
issue of Holocaust compensation to direct injury to individuals and to 
proof of descendants. And that's one of the key issues that's at the 
core of the debate around H.R. 40 at this point. Connect that back, if 
you can, to the whole notion of people like, for example, Majority 
Leader McConnell opposing the whole notion of a commission to begin a 
review. And the, you know, challenges that we face when we start 
looking at this, both not only in the United States but in other 
countries and localities?
    Dr. Christopher. Thank you for the question. I honestly believe 
that this issue of denial can be unpacked even further from a 
psychological perspective. And I believe that we have a collective 
amnesia in this country around the reality of our formation as a nation 
that believed in and adhered to a hierarchy of human value. And that 
actually informed Nazi Germany. And of course, informed colonialism.
    I think that we deny the fact of that 250-300 years of atrocity. We 
deny the consequences of that. I think denial has to be unpacked 
emotionally. We deny the fact. We deny the consequences. If we face the 
consequences, then we have to face the implications of those 
consequences. And those are quite far reaching. But ultimately, 
underneath that, are the feelings. And emotions either move us or they 
paralyze us. And because we haven't brought the wisdom of psychology 
and social science to this work, the movement for the civil rights, the 
diversity, equity and inclusion movement, all of those movements have 
not really been informed by what we know about emotional intelligence 
and what we know about bringing people together in ways that shore up 
our sense of self. And so the absence of the really hard work, one on 
one, the absence of the really focused work on helping people to 
overcome their biases, it leads to a paralysis and an adherence to 
denial.
    So I think we will have compensatory and we will have reparations. 
But only after we've moved beyond this mountain of denial and refusal 
to face the realities. Now, if you start to unpack the literature 
that's beginning to surface now about our 250 years of forced 
enslavement of people and genocide, it's really hard to take. I can't 
go visit that museum that you spoke of because personally, as an 
African American woman, I cannot take that pain. But we have to be 
realistic and understand that underneath all of this are deeply 
embedded, unaddressed emotions.
    Some political leaders know that, and they manipulate those 
emotions for their own political gain. And that is happening in this 
country right now. So I think the private sector--the lessons we learn 
from the truth, racial healing, and transformation effort, which has 
involved many cities and counties around the country, colleges and 
universities, libraries--they're all working to do this hard work of 
finding this place of emotional resonance as human beings. We forget 
that in a democracy it is the people that will ultimately decide the 
future of this country. And so this work of generating people who are 
willing and able to face the tough emotions--now, I would also suggest 
that people will face and will move past denial. I learned it in my 
clinical practice over the years. They'll move past denial when they 
believe they have the resources to cope.
    So we have got to--and that's what our racial healing as a movement 
is about. It's about giving people the resources, the human resources, 
the connections, the relationships to feel that they can face these 
very hard, unfathomable realities that actually are part of the history 
of the United States, that we have chosen to be in a collective state 
of amnesia about.
    And the last thing I should say is that currently the people 
committed to this work are the Association of American Colleges and 
Universities, the American Public Health Association, Community Action 
Partnership, which is a legacy of the war on poverty. And they reach 
almost all the counties in America. The National Collective for Health 
Equity, which is focused on community-based coalitions. And then the 
center that I created in the memory of my first one that died in 
infancy, the Ntianu Center for Human Engagement. So these are five 
organizations that are committed to doing this hard work of the racial 
healing, bringing people together and helping them to come to grips 
with the challenges of the past, the atrocities of the past, but most 
importantly the promise of the future.
    Democracy depends on us being unified as a people. And we're still 
a very young democracy. But this critical work is at the core, I 
believe, in our ability to thrive and to flourish as a democracy.
    Amb. Eizenstat. I think your question is really crucial and it was 
proposed, I think, in a very sensitive way. Let me start personally. I 
grew up in the segregated South. I accepted it as a matter of fact. 
When I was 12 years old I got on a bus in Atlanta. There was only one 
seat left. It was the last row in the white section of the bus. And 
another lady, an African American woman, came on later with shopping 
bags. And I didn't get up to give her the seat because I said to 
myself: If I do, both of us will get arrested. As late as 1962, when I 
was a sophomore at the University of North Carolina, I went into a 
Howard Johnson's Restaurant. It was the beginning of a sit in. And I 
saw African American students from North Carolina Central blocking the 
egress. And I said to my colleague, who was from New York, why are they 
doing this? He said, what universe do you live in? It's because they 
can't get served. It was like somebody lifting a veil.
    So I grew up in a system in which segregation was simply accepted. 
And the question is, how do you deal with slavery and the persistence 
of discrimination? I worked for the Johnson White House. You know what 
LBJ did on housing, on public accommodations, on the Voting Rights Act. 
And I think that reparations is not the way to deal with problems. I 
think it's impractical. It would cost trillions of dollars. And it 
would be divisive. But there are many ways to do so.
    First of all, aligning it with what we did in the Holocaust, the 
U.S. Holocaust Memorial Museum is an enormous educational device. There 
are 4,000 people a day who come into that museum. Kids from all over 
the world, police officers, military--from military academies. It's an 
enormous educational device, as is the African American Museum on the 
other side, that teaches the story of slavery to people who otherwise 
wouldn't----
    Second, in January 2000, I created in the Clinton Administration, 
with the prime minister of Sweden, what was called the Holocaust 
Education Taskforce. Of course, then there were only six countries. Now 
there are 31. And they have mandatory Holocaust education in their 
school systems. And I'm embarrassed to say that in the United States of 
America, which initiated this, that only 10 states have any form of 
Holocaust education. And none of any form of education on slavery. It 
may be taught incidentally. We have a very decentralized school system, 
but if we could help catalyze an education movement similar to what 
we've tried doing with the Holocaust, that would be good.
    Third, during the Carter Administration the president--who was 
president from the deepest part of the deep South; this is 
statistically accurate, there was an article this week in Slate 
Magazine--President Carter appointed more African Americans to 
judgeships and senior positions than all 38 presidents all put 
together. This is really important. And in addition, we supported in 
the famous Bakke case in the Supreme Court--affirmative action. That's 
hanging by a thread now. We enacted minority set-asides for contractors 
of the government.
    In addition, as a way of reconciliation, if we can support programs 
that support not only the African American but low-income whites as 
well--like Title I elementary and secondary education, like Pell 
Grants, like Head Start programs--then we unite instead of dividing 
people along racial lines. But disproportionately we will be benefiting 
people of color who fall in diverse categories. But it's not exclusive.
    So I think trying to find ways that unite people yet do target the 
lingering impacts of slavery and discrimination is the way to go, 
rather than trying to come up with a specific reparations program, 
which would be impractical and doesn't direct to victims themselves, 
trace who was a descendant. How do you--how you acknowledge--
[inaudible]. These other ways, I think, are much more uniting and, 
essentially, if there's a relative immediate example and precedent, 
it's really what Nelson Mandela did with Apartheid. He did not enact a 
compensation program. He had a Truth and Reconciliation Commission 
which took testimony from 22,000 victims. And that was a--[inaudible]--
expression itself. I mean how we talk about the power of apologies and 
testimony, and this did that. And he had the perpetrators testify under 
an amnesty.
    It was a healing mission. And those of--it was not a compensation 
plan. Those are the kinds of things, I think, that are most effective 
in dealing with this.
    Dr. Thompson. And I would just say, if people are interested in 
asking questions, if you can line up at the mic.
    Dr. Orentlicher. I just wanted to briefly address this wonderful 
question as well. There are so many reasons for resistance, but the 
most important one I think politically is precisely an assumption that 
what we're talking about is the sort of classic litigation model of 
monetary compensation. And as soon as you say reparations now, that's 
the connection that many people make, both in the public and 
politically. And you know all the arguments on that. One of the things 
that I think is important about continuing to educate people about the 
historical facts and to get people to see them for the first time is 
that it gives you an opportunity to start a conversation about what 
appropriate reparations look like. And under the developed practice and 
law, as well, of reparations, monetary compensation is one form of 
quite a few.
    All of the initiatives that Ambassador Eizenstat mentioned as 
appropriate responses to the legacy of slavery are--have been conceived 
as parts of historic reparations packages. But they were conceived as 
parts of reparations practices after study, after consultation with 
affected constituencies, after extensive deliberation, to try to 
determine what is the most appropriate package. So I do want to kind of 
reinforce that part of the blockage, because I think people make 
assumptions and they're parted for a long time. Part of what we need to 
do is open up the conversation again.
    Mr. Ceder. I'll keep it short--[inaudible]. There was one part of 
the question about private reparations or investing. I think back a 
couple of weeks ago we had the national trade railway system in Holland 
offering a couple of millions in compensations to those victimized by 
the Holocaust. So that was a private company acknowledging their share 
in that horror. The difficulty you have with other questions, including 
the transatlantic slavery, is the time. It's because it's generations 
before. So that's where I think that there is a challenge. But I do 
believe that private companies, [they] have a lot of private income. I 
could name some--where you could see that the wealth--the wealth that 
they have gathered in these last centuries has moved and can be traced 
to--in this case, to the slave trade. So I do I think that private--
that reparations from private institutions should actually work. There 
is the question of if it should be compulsory or voluntary? I think it 
should be voluntary, thereby--[inaudible].
    Dr. Thompson. Thank you. Can you please state your name and your 
question, or comment?
    Questioner. Yes. My name is Gabe Hasley [ph]. I'm working for 
Representative Ted Lieu.
    So one thread I've been hearing throughout this briefing is the 
word ``narrative.'' And I'm just curious if you guys could clearly 
define the word and say how you would use it to mend separated 
communities?
    Dr. Thompson. Thank you. We'll actually take two more questions. 
Yes, sir.
    Questioner. Hi, my name is Joe Hafner [sp] here. I work for 
Representative Jared Huffman.
    My question is: How do you balance finding truth and reconciliation 
with accountability? Mr. Ambassador, you mentioned it in South African 
and the amnesty laws there, how that allowed everyone to be able to 
speak and bring up the truth. But in countries like El Salvador, where 
the truth commission didn't recommend charges because they didn't think 
their system could handle it, and that led to tons of--of complete, 
like, failure to reconcile the civil war. And now we see, 30-40 years 
later, they're finally started to prosecute some of the criminals that 
were named in the commission work. But it's so far later. So how do you 
balance creating an environment where people can tell the truth the 
society can reconcile, while also holding people accountable for their 
actions?
    Questioner. Hello. My name is Lilly, and I work for Senator Durbin.
    And so my question is, using this knowledge of past wrongdoings, 
what are your organizations or yourself doing to--either in Congress or 
anywhere--to help resolve current injustices, such as the refugee and 
asylum seekers fleeing violence, and also avoiding future wrongdoings?
    Dr. Thompson. Thank you. Thank you. So we have a question on 
narrative change that we can start with first.
    Dr. Christopher. I thank you all for the very insightful questions. 
I would say that the current--there's a framework for our work. And at 
the top of that framework is the importance of narrative. Ultimately, 
the human brain is wired to retain stories. I can give you all the 
facts in the world, but what you'll leave here with is the story. And 
so one of the things that we are calling for in this work is that 
leaders in philanthropy, public and private sectors, they should 
leverage today's media and unprecedented technology to disseminate a 
new narrative about human-oriented connectedness that is informed by 
21st century development science, with a clear intent to repudiate the 
false 15th- through 17th-century ideology and belief in separate and 
unequal human races. I think this public historical correction should 
include definitely authentic narratives and experiences of diverse 
people.
    If you read my full statement, I talk about the refugee crisis as a 
further example--picturing today's refugee crisis, certainly the one in 
this country right now that we're dealing with in a less than humane 
way, is a continuation of this adherence--consciously and in many cases 
unconsciously--to this idea that some people don't matter. I think it 
was a judge who said--when they said they had no bathrooms in these 
holding cells and they can't--he said, well, they don't need bathrooms. 
I mean, that is clearly a manifestation of this deeply held belief that 
some people are not of value.
    We have the capacity to change public consciousness. You mentioned 
the film, ``When They See Us,'' has had a profound effect on the way 
people are thinking. But we need a coordinated, collaborative effort to 
correct, if you will, the collective ethos of adhering to this idea. It 
is so embedded in our legal systems, in our housing, in our economic 
systems, in our criminal justice system, that we have to commit to a 
correction and a forward path. I believe focusing on history is 
absolutely important. But if you don't give people a container for 
that, then they--it only can create, I think, further division. And 
that's why the approach provides a container, provides resources of 
connecting to one another deeply as human beings.
    And I believe, from that, the accountability and, indeed, the 
repair--the willingness to repair--ultimately, the system of 
enslavement and segregation and exploitation was an economic system. 
And our inability to come to grips with the economic costs--racism 
costs this country $2 trillion annually, at least. I would refer you to 
the Business Case for Racial Equity. \1\ So we cannot really do the 
work of healing without taking into account the economic impact and 
addressing that in very creative and very, I think, fundamental ways. 
So I would leave my thoughts at that.
---------------------------------------------------------------------------
\1\  https://www.wkkf.org/resource-directory/resource/2018/07/business-
case-for-racial-equity
---------------------------------------------------------------------------
    Amb. Eizenstat. If I may mention one, the express U.S. example 
which has not been discussed, and I would like to address it. And that 
is the interning of Japanese Americans during World War II. The irony 
is I have worked during the Carter Administration with Senator Dan 
Inouye, who was a great senator from Hawaii. Lost one arm fighting with 
American troops in Italy. And his parents were interned in camps. It 
was only in 1988 that Congress passed, and President Reagan signed a 
bill that there were two features. The first was to pay $20,000 per 
person for those who survived. If you died between the end of the war 
and that time you got nothing. But at least there was that.
    But second there was a formal apology attached to that legislation 
apologizing for the interning of American citizens of Japanese origin. 
So here we get a combination of payments to a direct victim, combined 
with a more broad apology. And that had a dramatic effect in the 
Japanese American community. There were--Congressman Matsui, 
Congressman Inouye, there were Japanese Americans in Congress who 
helped to lead that legislation. But they waited till decades later. 
Somebody had just pushed it aside.
    Dr. Thompson. So we actually have Tracy Bibo on the phone. We are 
going to try our high-tech arrangement for her to address the narrative 
question.
    Ms. Bibo. Okay. Hi. Thanks very much for letting me speak. I would 
like to answer the question about the narrative and how we make 
changes.
    So narrative, what do we do with narrative and how we make changes. 
When I look at the history of Belgium and colonization, the history 
that has been taught in school and on TV is that that colonization was 
a good thing for the Congolese people, it was to bring civilization, 
and it was to help them get out of slavery because in a lot of parts of 
Congo, there were slave traders there. But going back, I mentioned in 
my statement--[inaudible]--when the second generation of people of 
Congolese descent where at school and they feel it is because the 
colonization was very bad for the people of Congo.
    So changing the narrative means that we have to talk about the 
Belgians and what they did, but you also have to talk about the 
suffering of the Congolese people and the impact it had on the 
Congolese people, during the colonization but also the aftermath now 
when you talk about today about the racism that black people face 
today. And I'm thinking of also all the research in psychology--
[inaudible]--and all the books written about colonization were written 
by Belgians, so white Belgians. And it also loved to romanticize 
colonization.
    Actually last year, in 2018, first time the book was brought up, 
entitled ``Congo: The Epic History,'' when we talk what do we think 
when we talk about colonization? That book was one of the first ones to 
be written by Congolese people, and so the narrative is totally 
different.
    So changing the narrative for me is not only talking about what 
Belgium did or what the Congolese were doing. Those two together to 
have that kind of situation to just bring those together to have a view 
of what happened during colonization. And its also not forgetting the 
suffering of Congolese people and the African people.
    So I think I have answered this question about the narrative, yes, 
and also the question of education. The issue is very important--I 
think last year--or last year was to see the change in the cultural 
situation, because it's quite insulting if you're Congolese to hear 
about there was supposedly no civilization before the Belgium people 
should be more of a--[inaudible]. So this is also part of changing the 
narrative. So to me, changing the narrative is about talking about what 
is the basis of colonization, talking about what happens and what 
impact is the of colonization, and how do colonizers look at 
colonization.
    And then there is a question about how do we then find truth and 
reconciliation--within the country and among the community. I couldn't 
hear very well what the other people said, but what happened in Congo, 
is a lot of people from the Congolese diaspora tried to talk also to 
colonizers. That is directly important because a lot of times we 
ourselves are so--[inaudible]--colonizer and--it's like we against 
them. But it's our shared story, so it's important to talk about it. 
And it's important to explain that when you talk about a system of 
colonization, we don't--we don't want to reduce all the--[inaudible]--
all those people, because most of the people--[inaudible]--it's the 
system that was bad. So it's important to have a dialog and talk about 
these things, to understand or to share it, basically.
    So I hope I answered--[inaudible]--questions. It's difficult for me 
to hear what other people say. So if you have another a question you 
can always send it to me.
    Thank you.
    Dr. Thompson. Thank you, Tracy.
    So were there other panelists who wanted to talk about the balance? 
So truth, reconciliation, transformation or answer the question on 
accountability?
    Dr. Orentlicher. It's a great question. So there's no general 
answer that's right for every country. It's a really important issue 
that many countries have struggled with. And I think one of the 
things--one of the lessons from experience in many countries is it's 
really valuable to invest more time up front when designing policies to 
deal with the past, to consult stakeholders widely before a policy is 
designed, in part because the policies that are developed can then be 
more responsive to what survivors really need and want. But also they 
can be part of crafting a policy that does strike a balance. And if 
there are tradeoffs, it's not somebody else making the tradeoffs for 
them, but survivors can help participate in identifying that.
    The other thing I would say is that sometimes--and here, I'm really 
focusing on donor states that underwrite transitional justice 
initiatives for other countries that can't afford it--it is important 
to be aware of that issue. And one of the subtexts of what I said 
earlier, but now I'm going to say it more explicitly, is that the 
international community invested an enormous amount in the Yugoslavia 
War Crimes Tribunal, which I think it was very much worth supporting, 
and also invested a lot in domestic war crimes prosecutions, also very 
worth supporting. But I think there's a risk that you can think, Okay, 
we've done it. We've dealt with the past. We had prosecutions.
    When in fact, prosecutions can do certain things that are very 
important, but not others. And so I think the lesson learned in many 
countries is that you have to address the past on numerous fronts, 
including truth telling processes suitable to the situation, 
reparations processes, again, suitable to the situation, as well as 
accountability. And often we tend to prioritize one or the other, and 
problems very often develop later because there wasn't a more complete 
approach.
    Amb. Eizenstat. I think the issue--you certainly addressed it as 
well--the question of accountability versus reconciliation. It's a 
very, very tough tradeoff. So for example, with the East German 
Communist situation, so-called GDR, called the democratic communist 
regime. After the reuniting of Germany, there was a payment, as I 
mentioned, of 300 euros per month for each month of prison. But one of 
the criticisms of the program is that there was not an active effort to 
prosecute the so-called Stasi intelligence people who were responsible 
for the development of a lot of the prosecution. There was some, but 
the decision was made for two reasons not to go much further.
    One was many were simply necessary to run the operation of the 
reuniting of Germany. The second was the fear that you would lead to a 
bloodbath, with many public trials that would drag on for years. And of 
course, the War Crimes Tribunal, some of these cases went for years and 
years. And so they made a tough tradeoff, for which they were 
criticized, not to go after all the--[inaudible].
    Mandela, again, to come back to that example, made a very conscious 
decision which he said--he said to a reporter of his mission, headed by 
Archbishop Tutu, that he knew that this was going to be a very painful 
tradeoff. And he made a decision, essentially, that having given 
amnesty to some to come forward, that he simply was not going to start 
a broad-based prosecution of those who were embedded in the system--
including, by the way, the president of the republic, who was the one 
that oversaw this.
    These are very, very tough issues. You certainly can't let the 
worst perpetrators go. Eichmann, for example, got a trial. The 
Nuremberg Trials were terribly important. But the Nuremberg Trials 
didn't get near a systemic accountability in people. And we have a unit 
in the Justice Department to this very day which still finds Nazis who 
are now in their nineties. One was recently deported to Germany for 
trial. So it's a very tough tradeoff, but when you can establish a very 
good reconciliation between a perpetrator and a victim, and 
victimization, it is still probably useful to go after that person and 
say there has to be accountability--even 70 years later.
    Dr. Christopher. We are having some trials in the South here in 
America that are holding people accountable for atrocities committed 
during the civil rights era. And it had such corruption and such 
embedded racial hierarchy that evidence that could have pointed to 
perpetrators of violent crime was literally held or ignored if it was 
Federal evidence. So there is movement toward greater accountability, 
but I would argue that our real work about--in addition, I agree with 
what you said, Ambassador. But our challenge is to create societal 
accountability. Our challenge is to transform our culture, our ethos, 
into one that no longer allows for these kinds of atrocities. And 
that's a mega work.
    That's a different level of work. It's a work that our country has 
got to find the courage to do. And one of the tenets that I have failed 
to mention, and Senator Cardin referred to it, it really is a 
collaboration. It's a collective work. In the work we do with our 
racial healing, building on the Truth, Racial Healing and 
Transformation [TRHT]. It's Native American, it's African American, 
it's immigrant, Asian American, Pacific Island, it's Appalachian white, 
it's every person in our society. Because the focus, while it 
acknowledges the horror that is perpetrated by this--and fomented by 
this belief system, the focus is on our collective humanity and our 
interconnected humanity. And that's the new consciousness that we have 
to create if, in fact, this experiment called America is actually going 
to survive.
    And our current tension that we have in this society is just 
opposing that truth with the revisiting of the policy of a hierarchy of 
human value that's embodied and embedded in white nationalism and other 
forms of extremism. So I wanted to drive that home, because as Senator 
Cardin said, we have to come together to do this work and find a way 
forward, and relinquish these absurd notions that have no place in the 
21st century.
    Dr. Thompson. We did have one final question.
    Questioner. Hi. I'm Jim Hardin [sp] with Congressman Steny Hoyer's 
office, and I'm a student at Rice University.
    My question kind of pertains to the point you made by the Honorable 
Tracy Bibo in our education system. For so long, we kind of prolonged 
all these conversations on identity, discrimination until we feel those 
students are comfortable with having these conversations. And 
oftentimes, this actually may solidify all their perspectives on these 
issues. So how do we make this equitable approach to the gender--I 
mean--agenda item that would bring it to the table at a younger age in 
our public education system?
    Dr. Thompson. So I'll just say--Tracy just mentioned it was 
difficult for her to hear, so she's not going to respond to this. But 
there is an actual whole section in her written testimony in the folder 
that addresses the issue of education as well.
    Mr. Ceder. Thanks. So that's a good question. I truly believe that 
education at the smallest age can really help in redefining how we view 
society. What we did in Holland as the debate went on, on specifically 
that, is we have an education--let's call it education canon. And we 
actually decide what are the basic foundations any child needs to learn 
before going to high school. So we're, like, redefining and 
prioritizing the subjects and topics, but also narrative and science. 
And there's a debate going on saying that the Holocaust, that's 
something that we do feel that a lot of kids growing up do not actually 
know what took place, to that extent. But also when it comes to the 
transatlantic slave trade, we also have a lot of kids that grew up--
also grow up now--actually don't realize to what extent that history 
has resulted in--[inaudible]--to today.
    So what we do in the Netherlands is that the secretary of education 
stipulates the canon. And that's actually being integrated in all 
elementary schools. I don't know how it works here, but I do feel like 
that is something one needs to do from the top down because that's--
you're creating the boundaries, you're creating the--you're actually 
creating the argument and the debate. And every school needs to partake 
in that. So I do feel that--as a Dutch perspective--I do feel that that 
would work in making sure that any school, in any state, anywhere has a 
similar narrative on how the United States came to pass, and what are 
several narratives from populations in that.
    Amb. Eizenstat. So permit me to add on the Netherlands. Seventy-
five percent of French Jews survived the war, with Nazi occupation. 
Fifty percent of Belgian Jews survived the war. Five percent of Dutch 
Jews survived--5 percent. And just as the Swiss, because of our own 
work at the State Department and the interagency process which has led 
to their home, looking at their position. Very important, I think--and 
I really appreciate what you said--for the Dutch to ask: What was there 
about the Dutch? I mean, if you ask even an educated person to give 
three countries people would say, well, Anne Frank was betrayed, you 
know? Oh, she was betrayed, okay.
    So what was there about the Dutch situation that led to 95 percent 
of its Dutch Jews being killed? Having that kind of education process 
would be a very important issue, in addition to, as you mentioned, an 
apology for the transatlantic slave trade, also for that--I think 
betrayal of the Dutch Jewish community.
    Dr. Christopher. If I could just add, my work in this space began 
around 30 years ago, with developing a curriculum for K-12 education 
that is called Americans All. And it revisited the history of the 
United States from multiple racial and ethnic perspectives and was 
endorsed by every education organization that we have in the country. I 
was amazed, as I watched teachers receive these materials and this 
information that they didn't have, and how it affected the way they 
were actually relating it to their students in their classroom. And the 
evaluation showed that the esteem, if you will, of some of the white 
teachers actually came in at a lower level than it had started. And I 
said, that's not a bad outcome because in some ways they were coming to 
grips with some of the ugliness of the past, but with tools and 
resources.
    And so I wanted to emphasize that education is critical. One of our 
lead partners in this is the Association of American Colleges and 
Universities. And they are establishing Truth, Racial Healing and 
Transformation centers on campuses all over this country, campuses that 
are training the educators. I mean, this work is comprehensive in its 
intention and vision. People are actually envisioning a future America 
without the belief in hierarchy in value. And the first step is to 
create the vision, and then you can create that which you have 
envisioned. And that's our goal.
    Dr. Orentlicher. I just wanted to say that in addition to the 
points others have made, education of young people is a critical part 
of changing the narrative. And this links up with the earlier point. 
Just really quickly, when we speak about some of the psychological 
barriers to dealing with the past, some of the most basic ones which 
operate in our daily lives in all kinds of spheres are, first of all, 
it's very hard to change people's minds once they have a set view. 
There's tons and tons of research that supports how difficult it is to 
get people to change their minds. So if they're exposed to new 
information and they have an entrenched position on something, they 
interpret that new information through the lens of what they already 
believe to be true.
    And second, another psychological dynamic that often feeds into 
denialism or resistance to facing the past in a constructive way is 
that people subconsciously like to preserve their self-esteem, 
including their subjective self-esteem. And so for many white Americans 
it's difficult to confront the fact that their ancestors were engaged 
in something that is inconceivably evil. And so there's this 
resistance, right?
    When you expose young people who don't yet have set views about the 
past to even information--I think the question was also about just how 
do you have constructive conversation? And that's, you know, an 
important area of really invaluable training right now as well. But 
just having the information itself, when people don't yet have a set 
view, and haven't inherited the social perspective, it's incredibly 
important. And even at the level where I teach, which is law school, 
when I work into my assignments things like Ta-Nehisi Coates' piece on 
the case for reparations, it's an eye opener for many of them. It's--I 
don't have to change their mind. I just have to provide information to 
them, and they react in a way and see how important it is to deal with 
slavery not as a historical phenomenon from long ago, but as something 
that has transmuted into other forms of harm over generations. It's eye 
opening.
    And so just a long way of saying education is so important in this 
country, and many others. Getting to people before their views have 
hardened is crucial.
    Dr. Thompson. Well, thank you. Are there are any other closing 
remarks from the speakers before we end? Okay. So with that, I would 
just like to thank everyone for being here with us today, including Mr. 
Ceder, who traveled all the way from Europe to join us. I would note 
that a former member of the European Parliament, Soraya Post, has 
actually called for, in her position, a truth and reconciliation 
process for Europe's 10-15 million Roma, so one of Europe's largest 
minority populations. And that's an ongoing process as well for Europe. 
Now, I also just wanted to note that Chairman Hastings was actually one 
of the judges that Carter appointed. So to your point about increasing 
appointments, I think, also diversity in positions of leadership are 
just one of the many solutions that can assist societies in moving 
forward.
    Processes by which our nations can heal for a brighter future are 
issues the commission will continue to focus on. There have just been a 
few, I would say, takeaways from this conversation. I think the main 
one is that while there are promising practices taking place in the 
transatlantic space there are also many challenges, as we heard from 
today. Silence, denial, the need for a real process to heal, including 
accurate historical education are but just some of those challenges 
that we've heard about. And there are also a number of pieces of 
existing legislation and policies that are already on the books that 
require not only followup but oversight. There are also roles not only 
for government but also civil society and the private sector in these 
conversations. And it really is a holistic process for our societies.
    I'm also just proud to say that several of today's speakers are 
actually alumni of the Transatlantic Inclusion Leaders Network, or 
TILN, a program founded by our Helsinki Commission, the State 
Department, administered by the German Marshall Fund and other 
stakeholders to support young leaders committing to advancing inclusive 
societies for the long-term prosperity of our democracies on both sides 
of the Atlantic. And so just so pleased that both Tracy Bibo and Don 
Ceder could be joining us today, as alumni of that program, which is 
now 200 strong, on both sides of the Atlantic. And I would say, with 
lessons learned from the past and continued leadership from all of you 
for the future, the hope is that our societies cannot only address the 
past but heal from it and use it as the foundation for transformation 
and a shared future.
    Thank you. [Applause.]
    [Whereupon, at 11:56 a.m., the briefing ended.]

    =======================================================================



                                  A P P E N D I X

    =======================================================================




    Chairman Hastings, Chairman Wicker, Commission members and our 
audience, thank you for holding this important briefing. I am honored 
to speak on methodologies that can unify and heal societies across the 
globe that have been divided by war, genocide and other traumas 
reflecting a belief in a hierarchy of human value. My name is Gail C. 
Christopher. I am the founder of the Ntianu Center for Healing and 
Nature, the Chairperson of the Trust for America's Health, and the 
architect and implementor of more than $1 billion in efforts spanning 
four decades to facilitate racial healing and jettison racism from 
American society.
    Research reveals that the inequities caused by racism cost our 
nation almost $2 trillion annually in lost purchasing power, reduced 
job opportunities, and diminished productivity. Research also documents 
the extent that the conscious and unconscious belief in a racial 
hierarchy fuels the reluctance of political leaders and policymakers to 
acknowledge the inequities and devote adequate resources to addressing 
them. Our democracy, like others around the world, is based upon full 
human engagement and action on shared interests of the population. In 
order to move forward, this nation must heal the wounds of our past and 
learn to work together with civility, and indeed, with love. We must 
build the individual and collective capacity to ``see ourselves in the 
face of the other.''
    Our country has a history of enslaving people, committing genocide 
among Indigenous people, and embracing centuries of institutionalized 
racism. Yet, unlike other countries that have endured war, sectarian or 
racial strife, the United States has never undertaken a comprehensive 
Truth and Reconciliation Commission (TRC) effort to heal divisions and 
bring equal opportunities to all communities. Thus, America experiences 
a significant wealth gap between white families and families of color, 
the persistence of government-incentivized residential segregation, 
unequal access to quality health care and affordable housing, 
achievement gaps in education, and discrimination in hiring practices.
    Throughout the world, extreme nationalism, racism, anti-Semitism 
and other forms of ethnic and religious bias are often sustained by an 
antiquated notion that the human family can be divided and ranked based 
on physical characteristics and ascribed traits. These ill-conceived 
beliefs ossify, becoming hardened barriers among populations. This 
belief is alive today, as is the racism it has perpetuated and 
ingrained in America and other nations.
    The planet has more refugees today than at any time on record, and 
the impacts of human conflict related to weakening multi-lateral 
institutions and rapid climate change will only increase the number. 
Across the globe, societies struggling with growing inequality and 
demographic changes are being offered scapegoats instead of solutions. 
It has proven far too easy for citizens to turn against families 
seeking a safer home, because anti-immigrant demagoguery taps into a 
well of beliefs that cast racialized Others and people in poverty as 
inferior and criminal. These are false beliefs. The truth is that, 
managed well, immigration makes societies stronger--and we never know 
when any of us will need welcome from a stranger.
    When we uproot the false belief in a hierarchy of human value, we 
will be on firmer ground to face the challenges ahead. Together with 
other healing thought leaders, we have plotted a new course, one that 
can transform our nation as well as serve as a blueprint for other 
nations facing legacies of racism and discrimination. The Rx Racial 
Healing National Mobilization Campaign is a movement that aims to 
generate a critical mass of people committed to working together and 
healing the wounds of the past as we seek to end racism and the 
inequities it has created. Remember architect and systems thinker 
Buckminster Fuller once said:

        ``You never change things by fighting the existing model. You 
                    must create a new model that makes the existing 
                    model obsolete.''

    By redefining racism as the embedded and entrenched belief system 
it is, Rx Racial Healing provides a needed on-ramp for launching a new 
model of relatedness that is grounded in the knowledge of our 
interconnected and equal worth as human beings. With this foundational 
idea in place, we can create new ways of living, policing, and 
governing, as well as ways of distributing resources more equitably 
because we see our collective common interests.
    This campaign is empowering organizations reaching millions of 
people in every sector of nearly every community in our country to 
transform our society by going beyond just treating the symptoms of 
racism. Using a Rx Racial Healing methodology to create empathetic and 
compassionate support, our objective is to facilitate local action 
coalitions to jettison racial hierarchy and implement long-term 
policies and practices that address the impact of racial equity on 
health, education, housing and economic opportunity.
    The Rx Racial Healing vision identifies five imperatives for 
transforming communities:
    <bullet>  Leaders in the philanthropic, public and private sectors 
should leverage media and technology to disseminate the new narrative 
about human origins and connectedness, informed by 21st century genomic 
science, to repudiate the false 17th century belief in separate and 
unequal human races. This public historical correction should include 
authentic narratives and experiences of diverse people who will provide 
previously untold historical and contemporary perspectives, fuel new 
understanding, and enhance capacity for self-compassion and empathy.
    <bullet>  We are already training a critical mass of facilitators 
in all disciplines, geographic areas, and organizations. They will 
provide Rx Racial Healing experiences for diverse groups to enhance 
skills and capacities for empathy, self-compassion, resilience and 
perspective-taking.
    My final three recommendations are for policymakers.
    <bullet>  Congress and States should aim to overcome 
institutionalized racial separation patterns by implementing new 
approaches to land use, zoning, housing and transportation policies, 
mortgage finance and resource development.
    <bullet>  Congress should review its public policies and 
administrative practices to ensure that they are honoring the humanity 
of all; and particularly redress past and current inequities in civil 
and criminal justice systems.
    <bullet>  Economic policymakers at every level of government should 
implement investment strategies that result in a more equitable economy 
that closes racial and ethnic income and wealth divides.
    Rx Racial Healing is a 21st century approach to collective healing. 
It is the work of positively influencing the consciousness of a people 
to help create a world without the effects of racism and religious 
bias. While we are applying it to the inequities in the United States, 
it can be applied globally to address the various manifestations of the 
belief in human hierarchy in any society. E pluribus unum! Out of many, 
one. If America is to survive and to thrive as a democracy, we must 
begin to truly believe that we are one people, one human family. We 
must muster the courage to unlearn human hierarchy and act to redress 
the consequences of adhering to that false belief for centuries. We 
must learn to love one another, to show compassion and grace. The 
prescription for what ails us is racial healing.

******
Rx Racial Healing Begins with A Change in Consciousness

    By consciousness, I mean our beliefs and our states of awareness, 
both conscious and unconscious; particularly awareness and appreciation 
about the human family, our origin, and our sense of belonging and 
inter-relatedness. The idea of an interconnected human family is 
thwarted by the persistent belief in a hierarchical taxonomy of 
humanity; and the systemic vestiges of that antiquated belief that 
still mold our societal infrastructure and systems of democracy. 
Consciousness is not just thoughts. Consciousness encompasses emotions 
and feelings, as well as perceptions and attitudes that shape our 
beliefs and behaviors.
    The Rx Racial Healing campaign is based on interrelated strategies: 
building a national organizational network and activating local action 
to promote racial healing and racial equity. At the national level, 
national partner organizations are using their leadership positions to 
engage others in their sectors to become champions for racial healing 
and equity. Organizations throughout the education, health, housing, 
economic development, philanthropic, faith, and non-profit communities 
make up a second sphere of collaborating entities.
    The goal is to help a critical mass of people work together to 
eradicate the false ideology of a hierarchy of human value and its 
harmful consequences. This is the change we are creating. We want to 
reach a critical mass, the minimal number of people needed to sustain a 
consciousness shift in our society away from permitted hatred, 
indifference, and loveless-ness, toward unity and systemic human 
compassion for all. As such, the goal is education or re-education.
    Rx Racial Healing enables people to conceptualize and experience a 
new model for relating as an extended human family, one that is capable 
of perspective-taking and seeing ourselves in the face of the perceived 
``other,'' feeling empathy, and demonstrating compassion with one 
another.
    This outcome is achieved by engaging people in communities and 
organizations throughout the nation. Rx Racial Healing is a conceptual 
framework for action in communities and organizations which includes a 
specific racial healing circle methodology, which guides people from 
diverse backgrounds and perspectives through a story-telling process 
that leads them to recognize and embrace each other's humanity.
    It is past time for calling out and eradicating the 17th century, 
obsolete construct and belief in a hierarchy of human worth and value. 
It is now time to replace that old mental model with an accurate 
awareness and understanding of our common human ancestry and our equal 
inter-connected humanity. This is the missing link needed for 
generating and sustaining an equitable social infrastructure in America 
and for realizing our aspirational vision for the promise of democracy.
    When implemented on a large and comprehensive scale throughout the 
nation, Rx Racial Healing will help move us beyond needless divides 
toward the wholeness upon which a viable democracy depends. Why is this 
change so badly needed?
    Our inability as individuals and as a society to value all human 
beings equally, or as Albert Einstein once said to ``see ourselves in 
the face of the other,'' is making us sick, literally.
    Even more broadly speaking, the incapacity to value all human 
beings equally keeps us from experiencing optimal well-being and 
happiness. Our hearts and brains are designed to resonate with 
harmonious relationships. The opposite--fear and anxiety, separation, 
alienation and hate--induces stress and distress. Distress causes a 
cascade of illness related changes within our very cells in our 
physical bodies and within our body politic.
    This inability is not unlike the design flaw in the Boeing 737 Max 
Jet airliner that is believed to have contributed to two plane crashes 
causing the needless tragic deaths of hundreds of passengers. 
Researchers estimate that 265 people die every day from racial health 
disparities in the United States. This is the equivalent of a 747 Jet 
crashing on a daily basis.
    But it is not just people of color that suffer and die prematurely. 
The U.S. population, as a whole, lives shorter lives and has poorer 
health than our peer nations. Our residual belief in a false taxonomy 
and hierarchy of humanity--of human value or worth--is a major 
contributing factor to our poor health outcomes. Distress responses 
related directly and indirectly to racial fear, anxiety and to its 
attendant social conditions contribute to hypertension and 
cardiovascular disease, glucose intolerance, and insulin resistance, 
and diabetes and its precursor metabolic syndrome. Dr. Jonathan Mezl's 
2019 book Dying of Whiteness calculates the impact of public policies 
increasingly supported by white Americans and viewed through a white 
identity lens--such as the refusal to expand Medicaid in Tennessee or 
the loosening of gun laws in Missouri in the wake of Ferguson 
protests--on the population-level health of white Americans. Dr. Mezl 
finds that these two policies resulted in 10,506 lost years of 
productive white male life in Missouri and every single white resident 
in Tennessee 14.1 days of life. \1\
---------------------------------------------------------------------------
\1\  Mezl, Jonathan M., Dying of Whiteness: How the Politics of Racial 
Resentment is Killing America's Heartland at Loc. 286 of 6380.
---------------------------------------------------------------------------
    Researchers at Stanford University surveyed voters in the 2016 
Presidential election. Results showed that the majority of white 
Republican voters indicated fear of diversity was the primary reason 
for their vote. The undergirding belief system--racism--that devalues 
people based on perceived differences in physical characteristics like 
skin color, hair texture, and facial features, is a foundational idea 
in America.
    Our nation has so much to overcome.
    The institution of slavery lasted throughout the formative 
centuries of the United States, 1619-1865 and officially ended because 
of the Civil War and the 13th Amendment to the U.S. constitution. 
However, former slave owners, state and local governments and 
corporations created new ways to maintain the system of racial 
hierarchy. Journalist and author, Douglas Blackmon, wrote a Pulitzer 
Prize winning book on this in 2008, Slavery by Another Name: The Re-
Enslavement of African Americans from the Civil War to World War II. 
Blackmon explores the brutal systems of convict leasing, share cropping 
and peonage. These were all oppressive economic strategies to exploit 
and control emancipated African Americans.
    The undergirding belief in a hierarchy of human value continued to 
define the culture of America well into the Twentieth Century. Other 
systemic manifestations included Jim Crow laws used to humiliate and 
deny social contact, residential and school segregation, overt 
discrimination across all public and private opportunity avenues; 
lynching and terror through racial violence perpetrated by hate filled 
individuals and organizations such as the Ku Klux Klan and White 
Citizen's Councils. Beliefs die hard. Cultural norms die even harder, 
especially when they are embedded within all perceived authority, 
educational, protection and survival mechanisms.
    Such is the case for the fallacy of human hierarchy. This 
antiquated way of seeing and being with one another is a fossil formed 
during the 14th Century and crystallized in the 18th Century by Carl 
Linnaeus, Swedish Botanist, known as the Father of Taxonomy. But unlike 
other fossils, the belief in a hierarchy of human value still lives 
deeply in the hearts and mind of far too many people today. This idea 
must end and take its place in the museums like other historic relics.
    The idea of a human value hierarchy must die now, before it kills 
us all!
    Linnaeus first codified the scientific frame of human hierarchy and 
listed human ``races'' based on physical appearances and on continents 
of origin. He placed people like himself, Europeans, at the top of this 
hierarchy and other so called ``races'' in descending order of 
humanness--placing Africans at the very bottom of his hierarchical 
system.
    Blackmon's book illustrates the lasting impact of the hierarchy 
created by Linneaus in the 1700s. Blackmon creates a new narrative by 
filling in decades of missing history about just how the belief in 
racial hierarchy was enforced well into the Twentieth Century. It 
provides previously hidden information about an important, albeit 
painful and tragic period in our nation's history. Yet, when he tells 
the stories in public forums, he leads with affirmation and context. He 
shows photos and reminds audiences that it was largely the unpaid labor 
of black men and women that cleared the dense forests to make way for 
railroads, highways, and metropolitan areas.
    The protracted history of enslavement of African Americans and its 
aftermath often leads people to view racial hierarchy as only a black-
white issue. To do so is a mistake. Linneaus' taxonomy reduced all 
people perceived as different from Europeans to the status of ``less 
than'' and the ``other.''
    Pigmentation or the lack there of are levers for social rejection 
or acceptance throughout the world. A dear colleague from India once 
told me that the first question families ask about the intended bride 
or groom is ``How dark is the skin?'' Skin lightening products are a 
multi-billion-dollar global industry. Racial hierarchy beliefs have 
spawned colorism, prejudice, and discrimination against individuals 
with dark skin the world over. Often colorism manifests within racial 
and ethnic communities.
    Twenty-first century science has ushered in a fresh awareness and 
understanding about human origins and genetic commonality. We all are 
99.9 percent the same, having originally descended from a common human 
ancestry. This science should be the final nail in the coffin of belief 
in white superiority and its racialized hierarchy of human value. 
Instead, there is a resurgence in assertions of racist ideas under 
cover of legitimacy as nationalism and populism.
    According to the Children's Defense Fund's 2016 report, ``The State 
of America's Children,'' most of the children in our nation under age 
five are now children of color. In spite of this demographic reality, 
according to a 2019 Pew Research Center poll, 68 percent of Americans 
think race relations are getting worse in the United States. Hate 
crimes based on race, xenophobia and religious intolerance are rising. 
Civility is declining at a time when our diversity is increasing.
    The Rx Racial Healing Mobilization Campaign builds upon the Truth, 
Racial Healing, and Transformation (TRHT) process that I designed and 
launched with the W.K. Kellogg Foundation in 2017. The Rx Racial 
Healing campaign takes the next step--coupling the TRHT process and 
principles with a new overreaching framework that enables the 
population to conceptualize and experience a new model for relating as 
an extended human family. The Rx Racial Healing framework is an 
adaptation of international TRCs that have been instrumental in 
resolving deeply rooted conflicts around the world, and underscoring 
the transformational power in healing the wounds of the past before 
progress can be made.
    The TRC process is varied, but typically involves public and 
private activities designed to uncover and deepen the understanding of 
tragedies and/or human rights violations. Prior TRC efforts have been 
initiated by litigation, by government mandate and by calls from 
activists. The TRC methodology is an international, 20th Century 
development involving public and private experiences for uncovering and 
deepening understanding of recent tragedies and human rights 
violations. The approach has been used previously to address historic 
wrongs in Australia, Canada and a few communities in the United States.

******
Personal Reflections on Racial Healing

    I remember as a 15-year-old first beginning to understand the power 
of racism, and the need for healing.
    Fate, luck, and talent took me from my all African-American 
community in Cleveland and plopped me down into an all-white enclave, a 
summer arts encampment in Chautauqua, New York. Away from home for 6 
weeks, I would have a roommate of a different race and be the only one-
of-two people of color in the entire town.
    Everyone seemed very nice and treated me well, but I didn't even 
have a word for the sense of separation and alienation that I felt. I 
woke up very early every morning and walked, alone, to the wooded area 
in the small town. It was there that I discovered my love of nature and 
learned to appreciate the simple beauty of trees. I would sit on the 
picnic table listening to the sound of water flowing in a nearby brook, 
staring up at the oddly pale sky between the treetops for what seemed 
like hours.
    Decades later, I would understand the science about the healing 
effects of nature; and how being within forested areas can actually 
help the body reduce levels of the stress hormone cortisol. I would 
become a champion for the global movement for engaging children with 
nature and open the Ntianu Center for Healing and Nature on a three-
acre forested location in southern Maryland fed by an artesian spring.
    Heavily scheduled days and evenings filled with concerts and shows 
made the weeks pass very quickly. Soon the once-in-a-lifetime summer 
arts experience drew to its end. On one of the camp's last days, as I 
walked past all the quaint Victorian houses on our little street, an 
ambulance appeared in front of our yellow house. Hurrying to see what 
was going on, I reached the front stairs in time to see my roommate 
being carried out on a stretcher. She was unconscious. I asked our 
house parents what had happened, and they told me that she had taken 
pills in an attempted suicide.
    I ran up to our room, which suddenly seemed unbearably small. There 
I found a note she had written: ``I don't want to go home. My father 
has taught me to hate black people. I now know that is a lie. I don't 
want to live like that anymore.'' She had tried to take her own life.
    The summer ended and I was never to learn her fate, but assumed 
they saved her life that day. I never forgot how it felt to have lived 
a brief moment within an innocent and authentic friendship which, 
unbeknownst to me, had pierced the veneer of racial hatred.
    Having come of age during the Civil Rights Movement era and having 
lived with both forced and de facto segregation, I, like so many of my 
peers, succeeded, in spite of the odds.
    That summer long ago when, as a young girl, I came face to face 
with my roommate's deep pain, the child within me wanted to know why 
people believed in, taught, and acted upon hate. The adult and 
eventually the healer in me learned the answer to that question. I came 
to see, believe in, and know the power of love as a healing force.
    I've spent the last 40 years translating that understanding into 
programs and social interventions to help make our lives, communities, 
and nation whole. I had experienced both the consequences of racial 
hatred and the courage to stand up for freedom that summer in 
Chautauqua.

******
Racism Flows Like a River

    Whether describing the Nile, Amazon or Yangtze River, historians 
know that large rivers became the centers around which civilizations 
and nation states have flourished. This is true for the Mississippi 
river; named by the indigenous dwellers of the Algonquin native tribes 
as the Father of Waters, the Mississippi River is one of the world's 
longest rivers. It touches 32 states in America. It is not an 
exaggeration to say that it is the river that became the center around 
which the United States flourished. Still today in the 21st-century the 
Mississippi river and its many tributaries drive up to 75 percent of 
the U.S. economy.
    This mighty river provides a good metaphor for the power of a 
single phenomenon to shape our life and lives--the belief in a 
hierarchy of humanity value that flows through the American psyche and 
society like the Father of Waters, the Mississippi. It drove the 
slavery economy and became the center around which 18th, 19th, 20th, 
and even today's 21st century America flourishes.
    Every river has a delta, a landform created from the earth and 
rocks along the banks that it touched while moving rapidly to the ocean 
beckoning its waters. The river carries this sediment and debris to an 
end place where movement slows to stagnation in the delta.
    The human body has become the delta for the metaphorical river of 
racism. Sediment and debris from exposures have become socially 
embodied. Landforms--islands of separation, including residential 
segregation characterized by political and economic disinvestment--
create adverse and toxic experiences for some, and fear of perceived 
``others''. These deltas help generate chronic stress and traumatic 
body responses which cause excess vulnerability to disease, and 
premature death.
    But unlike rivers, whose existence and flow are vital for 
sustaining geographic and human life, racism is manmade. This 
antiquated belief system and way of seeing/being can be undone. Racism 
flows like a river, but it is not a river. Racism can and must be 
eliminated and its harmful consequences healed.
    When implemented on a large and comprehensive scale throughout the 
nation, Rx Racial Healing will help move us beyond needless divides 
toward the wholeness upon which a viable democracy depends.


    Thank you for inviting me to speak at this important hearing on 
ways to rectify past injustices and lessons to be learned for the 
future. I greatly appreciate the leadership of Congressman and Chairman 
Alcee Hastings and Senator and Co-Chairman Roger Wicker. You asked me 
to focus on ways we have sought imperfect justice for Holocaust 
survivors and families of victims from the Holocaust during World War 
II, that took the lives of six million Jews, including a million and a 
half Jewish children, and millions of others.
    I was only vaguely aware of the Shoah growing up in Atlanta, and 
never met a Holocaust survivor. I became directly involved in what has 
been decades of work in this area as a result of a meeting in 
Washington in 1968 with Arthur Morse, a co-worker in the 1968 
presidential campaign of Vice President Hubert Humphrey against Richard 
Nixon. He had just written a book ``While Six Million Died: A Chronicle 
of American Apathy,'' which shockingly portrayed how much President 
Roosevelt and his administration knew about the genocide of the Jews 
and failed to act. FDR had been an icon in our home in Atlanta. I 
personally vowed that I would try to play some role if I was ever in 
the U.S. Government, in rectifying this cloud over the otherwise 
courageous role of our soldiers and military and civilian leaders in 
winning the war against Nazi Germany and Japan.
    That time came first in April 1978, when as President Carter's 
chief White House domestic policy adviser I wrote the president a 
memorandum at the suggestion of Ellen Goldstein of my domestic policy 
staff, along with White House counsel Robert Lipshutz, recommending the 
creation of a Presidential Commission on the Holocaust, chaired by Eli 
Wiesel, to determine an appropriate memorial in Washington to honor 
Holocaust victims, but also to provide a history of the Holocaust, and 
lessons for the future: how anti-
Semitism, hate and intolerance based upon race, religion or ethnic 
origin, can lead to genocide. The commission recommended and President 
Carter agreed to the creation of the U.S. Holocaust Memorial Museum and 
obtained congressional funding for a site. In 1993, I was present when 
President Clinton and Eli Wiesel officially opened the museum. Now over 
25 years later, over 50 million visitors have visited the museum, 
three-quarters non-Jews, including school children, police, military 
from the U.S. and around the world.
    A museum like the Holocaust Museum can be an important part of 
dealing with past injustices, by educating the public on the horrors of 
the past and the need to avoid repeating history. So too the National 
Museum on African American History and Culture, opened in 2016 as a 
Federal Smithsonian museum, is an important way to educate Americans 
and people around the world on the history of slavery and its aftermath 
in the U.S., as well as the positive contributions African Americans 
have made to the United States. It is one of the most visited museums 
in Washington for people of all races and backgrounds.
    The next opportunity to fulfill my personal pledge occurred in the 
Clinton administration, when Assistant Secretary of State Richard 
Holbrooke, at the request of President Clinton after his meeting with 
Edgar Bronfman, president of the World Jewish Congress, asked me when I 
was U.S. Ambassador to the European Union in Brussels to undertake a 
dual role: special representative of the president and secretary of 
state on Holocaust-era issues, initially focusing on the return of 
Jewish and Christian synagogues, churches, community centers, schools, 
even cemeteries, by the newly freed states in central and eastern 
Europe (the former Soviet bloc states) so the re-emerging religious 
communities after the fall of communism, could openly practice their 
religion again after decades of post-World War II Communist 
suppression. My entire staff at the U.S. Mission to the European Union 
urged me to reject the offer, since I already had a full-time job as 
U.S. Ambassador to the EU, but after discussing it with my wonderful 
wife and adviser Fran, I felt I had a unique opportunity to begin to 
rectify the wrongs of the past.
    In this capacity, remarkable research uncovered the fact that a 
little-known Tripartite Gold Commission, created by the Western allies, 
to collect and redistribute back Nazi-looted gold to the countries from 
which it was stolen, still had some six tons of gold in its possession 
forty years later. The dusty office of the commission was only a few 
blocks from my office at the U.S. Mission to the European Union in 
Brussels. I convened a dozen countries with claims to the gold, and was 
able to get them to agree (with the lead of Austria's Hans Winkler) to 
convert the proceeds and provide it for their Holocaust survivors. We 
signed the agreement in Paris and held the London Gold Conference to 
seal it.
    As I was going from country to country urging restitution or 
compensation for communal property, I read a front page article in 1994 
in the Wall Street Journal Europe, as journalists and historians were 
focusing the 50th anniversary of key events in World War II, about 
dormant Swiss bank accounts, created by Jews to keep their funds from 
confiscation by the Nazis as they overran Europe, by depositing them in 
the safest banking system in wartime Europe in neutral Switzerland, 
only to have Holocaust survivors or families of victims informed there 
was no evidence of such accounts.
    After getting the consent of Richard Holbrook to broaden my 
mission, I went to Basel, Switzerland (as did Edgar Bronfman, 
separately), to meet with the Swiss bank association. I handed them a 
copy of the Wall Street Journal article and asked if the story was 
true. Yes, up to a point, they admitted. They had appointed their own 
ombudsman and had reviewed every bank account created between 1933 and 
1945, even for banks no longer in existence, and they found 732 
accounts which plussed up for interest over the years was $32 million 
and they would pay the lawful owners promptly. Not trusting them, Paul 
Volcker was appointed and after several years of investigation along 
with four major U.S.-based accounting firms, which cost the Swiss banks 
$200 million in audit fees, Volcker concluded that there were 54,000 
possible and 21,000 probable Jewish accounts.
    Senate Banking Committee hearings, chaired by Senator Al D'Amato, 
at which I testified as did Greta Beer, who had been highlighted in the 
Wall Street Journal for her persistent but fruitless efforts to locate 
her father's Swiss bank accounts, helped to elevate the injustice. 
Congressman Jim Leach, the chair of the House Banking Committee, also 
held a series of hearings on a variety of Holocaust-related issues at 
which I testified, gave considerable impetus to our efforts.
    At this point, class action lawsuits were filed against the Swiss 
banks and as under secretary of state for economic, business and 
agricultural affairs, I mediatated between the class action lawyers and 
the Swiss bank representatives. Volcker found that the Swiss banks had 
run down the accounts by charging monthly fees. With the crucial help 
of U.S. District Court judge Edward Korman, the cases were settled for 
$1.25 billion, divided between account owners who survived or their 
direct heirs recovered, through a court-administered claims process, 
and to other needy Holocaust survivors.
    I chaired an interagency committee which prepared a report in 1997 
under the direction of State Department historian William Slany, 
entitled ``U.S. and Allied Efforts to Rescue and Return Gold and Other 
Assets Stolen or Hidden by Germany During World War II'' ( often called 
the ``Eizenstat Report'') that again shows the utility of historical 
reviews in dealing with past injustices. Our committee after 7 months 
of exhaustive work found among other things that the Swiss National 
Bank knowingly took Nazi-looted gold from the countries they occupied 
and from Holocaust victims, and exchanged it for the hard currency, 
Swiss francs, Nazi-Germany desperately needed to finance their war 
effort, since their own currency was subject to Allied sanctions.
    In 1998, we prepared a similar report on some dozen or ``neutral 
countries'' during World War II, to provide a view on how they dealt 
with Jewish and other refugees and their property, and what assistance 
they provided to the Nazis and/or the Allies during the war. The Swiss 
class action suits, led to others, like peeling back the layers of an 
onion. First were those against German companies that employed slave 
and forced labor during World War II, as well as German and other 
European insurance companies, in which I mediated a settlement for $5 
billion dollars (10 billion deutch marks). It is important to recognize 
that I insisted to the Germans that this settlement had to include 
compensation not only for Jewish (and some non-Jewish) slave laborers 
who were being worked to death, but also to non-Jewish forced laborers 
who were viewed as an asset of the German Reich, to produce products 
for Germany when their workers were fighting the war. Of the 10 billion 
dm, 80 percent went for slave and forced labor, and of that 20 percent 
went to around 200,000 surviving largely Jewish slave laborers and 80 
percent went to non-Jewish forced laborers, mostly Poles, Czechoslovaks 
and others from Central and Eastern Europe. Around $300 million went to 
ICHEIC [International Commission on Holocaust Era Insurance Claims] for 
unpaid insurance policies, when European insurers denied coverage after 
the war for non-payment of premiums by those in concentration camps. In 
the end, over 7000 German companies contributed to the overall fund, 
many of whom had not been involved in slave or forced labor, as did the 
German government. At my request, President Clinton called Chancellor 
Schroeder to add another $ 1 billion.
    It is crucial to understand that only living survivors recovered 
for slave and forced laborers, not their heirs. For insurance payments, 
the beneficiaries recovered.
    But again, the remedy of past injustices, there was a non-
compensation feature to the German settlement. The German companies 
insisted on setting aside several hundred million euros for a 
``foundation for remembrance, responsibility and future'', that would 
support future projects devoted to tolerance and justice, and I was 
able to get the class action lawyers and the Jewish groups involved in 
the German negotiations to agree. The foundation has supported numerous 
projects not related to the Holocaust, such as LGBT rights.
    At the same time as the German slave labor cases were filed, class 
actions were also filed against Austrian slave and forced labor 
companies. Unlike the German cases, the settlement with Austria of 
around $800 million involved only private companies, not the 
government, and also covered personal property, with a $210 million cap 
and a ceiling of $2 million for any one claim by a Holocaust survivor 
or direct heir of a victim. This agreement was signed just in January, 
2001, just a few days before the end of the Clinton administration. The 
Austrian national fund created an excellent claims process, which 
considered around 19,000 property claims. Although the amounts awarded 
in many cases were far less than the value of the property confiscated 
by the Nazis, all reports were that most claimants were satisfied that 
at last there was some measure of justice for what they lost. The 
Austrian government also uniquely provided a monthly pension for all 
Austrian Holocaust survivors wherever they lived in the world 
equivalent to what they provided to their own pensioners. More 
recently, Poland, to its credit, instituted a similar pension program 
for Polish Holocaust survivors, which is functioning more efficiently 
after intervention by the world Jewish restitution organization (WJRO).
    I also mediated a smaller $20 million agreement to settle a class 
action suit against French banks, with similar claims to those made 
against the French banks.
    One unique feature of our Holocaust justice work involved the 
recovery of or compensation for Nazi-looted art. It provides an 
interesting example of how experts can elevate a forgotten issue; how 
the U.S. Government can use its leadership to provide belated justice; 
and how an international agreement based upon morality and without 
binding legal effect can make a profound contribution to remedying 
historical injustices.
    The Holocaust was not only the most ghastly genocide in human 
history, it was also the greatest theft, both to provide funds for the 
Third Reich and to wipe out all vestiges of Jewish culture, by stealing 
Jewish-owned artworks, cultural objects, books, chinaware, coins, 
decorative art objects, photographs, and musical instruments. Experts 
estimate that 600,000 paintings were stolen, of which more than 100,000 
are still unaccounted for. They were by no means all masterpieces, but 
had intrinsic value to families as symbols of lost relatives and lost 
lives. When the other objects are included the numbers swell into the 
millions. The Allies were not oblivious to the widespread theft, and in 
the January 5, 1943 London Declaration called on neutral nations not to 
trade in looted goods by the Nazis. U.S. Army commanders facing the 
German army willingly agreed toward the end of the war to include art 
curators and experts in their forces as ``monuments, fine arts, and 
archives'' officers, who risked their lives to preserve Europe's 
cultural heritage and that of the Jews. These ``Monuments Men'' found 
an enormous number of looted art and cultural objects that they 
dispatched to collection points in Germany as the war ended, to be 
catalogued and eventually returned to their owners. President Truman 
ordered the looted art objects to be repatriated as soon as possible, 
but identifying the individual owners in the chaos of the war's end was 
impossible. So under U.S. Military Order 59, following established 
international legal precedent, the U.S. and British commands returned 
the art objects to the countries from which they were stolen and relied 
upon each government to trace the owners and return the objects. While 
there was some fleeting efforts at restitution, this reliance was often 
misplaced. Many were incorporated into their public collections.
    In the 1990's, based upon declassified Allied war documents and the 
opening of some Central and Eastern European archives after the end of 
the cold war, art historians like Lynn Nicholas (``The Rape of 
Europa''), Jonathan Petropoulos, Konstantin Akinsha, and Hector 
Feliciano wrote about their findings of the dimensions of the theft and 
the paucity of restitution. In January, 1995, professor Elizabeth 
Simpson held an international conference at the Bard College Graduate 
Center for studies in the decorative arts to further bring the issue of 
Nazi-confiscated art from the shadows into the sunlight.
    Public attention was further piqued by a U.S. House Banking 
Committee hearing in February 1998 chaired by Congressman Jim Leach on 
assets stolen during World War II at which a star witness was Phillippe 
de Montebello, the longtime director of the Metropolitan Museum in New 
York. Pressed by Chairman Leach, he promised that the Association of 
Art Museum Directors (AAMD), to which over 2000 American art museums 
belonged, would produce guidelines to address looted art.
    It was now that with the support of President Clinton and Secretary 
of State Madeline Albright, I organized a conference at the State 
Department, ably assisted by J.D. Bindenagel, with 57 delegations, 44 
countries, and 13 NGOs. In December, 1998, we agreed on the Washington 
Principles which J.D. and I drafted, using many of the AAMD principles. 
In order to get them approved, we had to make them non-legally binding. 
The 44 countries agreed in these Washington Principles to open their 
archives, fund research into the provenance of long-closed collections, 
notify potential claimants, resolve claims on their merits; and provide 
processes for a ``just and fair solution'' for the recovery or 
compensation of Nazi-confiscated art.
    Relying upon the good will and moral force of the principles the 
Washington Principles have changed the way the art world does business. 
Provenance research has proliferated and websites are increasingly 
enabling potential Holocaust survivors or their heirs to locate art 
looted from them or their families. Privately funded groups like the 
Commission for Art Recovery, have facilitated the process. Five 
European nations have created panels to resolve claims in non-
litigation forums. Tens of thousands of artworks and cultural objects 
have been restituted or compensation has been paid. The two major art 
auction houses, Christie's and Sotheby's have full-time staff which 
screen any art that passed through European hands between 1933-1945 to 
determine if any have suspicious provenance and might have been looted 
by the Nazis, and will not auction or sell them until these issues are 
resolved. Christie's has resolved 100 or more claims to art with 
suspicious World-War II provenance.
    Congress has been an important partner in providing Holocaust-
related justice. American museums after a strong start, began to assert 
affirmative legal defenses like laches and the statute of limitations 
and even to preempt claims by seeking declaratory judgments, even 
before claims are filed, violating the spirit of the Washington 
Principles and the Terezin Declaration. In 2016, significantly due to 
the leadership of Ambassador Ronald Lauder Congress passed the 
Holocaust Expropriated Art Recovery Act (HEAR Act), which allows 
claimants to present a claim in court for 6 years after the object has 
been located and identified, and resets the clock for cases when the 
object's location was known, but the claims was barred by previously 
existing statute of limitations. The AAMD supported its passage. In the 
2018 Justice for Uncompensated Survivors Today Act (JUST Act) the State 
Department is required to report by November 2019 on the degree to 
which countries, including the United States, are complying with the 
Terezin Declaration. It would be important for Congress to hold 
hearings after receiving the State Department's JUST report, to urge 
countries which have lagged in implementing the commitments they have 
made to do more.
    One area of particular frustration has been the lack of progress on 
Polish private property, an area of great political sensitivity in 
Poland. Almost all of Poland's 3.5 million Jews were killed by the 
Nazis in the Holocaust, along with 3 million non-Jewish Poles. Only a 
few thousand Jews live in Poland today. Jews owned a substantial 
percentage of the homes and businesses in major cities like Warsaw and 
Krakow, which were confiscated by the Nazis and then nationalized after 
the war by the Polish Communist government. No effort has been made by 
the post-Communist Democratic governments to rectify this injustice. It 
is in Poland's interest to do so, since there is a cloud over much of 
the property in cities like Warsaw that depresses its value. Going back 
to the Clinton administration I have worked on encouraging Poland to 
develop a process for dealing with this injustice, as well as that 
perpetrated on its non-Jewish citizens. There is great fear that Polish 
Holocaust survivors or the heirs of the millions killed will seek to 
get their physical property back. This is not the case. The Polish 
representative participated with me and my State Department team in the 
Obama administration on an executive committee to present a draft to 
the full 2010 Prague conference on the restitution and/or compensation 
of real (immovable) property confiscated by the Nazis and/or their 
collaborators, and were among the over 40 countries that endorsed the 
agreement. But shortly thereafter, I received a letter from the Polish 
government stating they had signed in error and withdrawing their 
approval.
    Then President Kwasniewski proposed an excellent bill to provide a 
small percentage of the current fair market value of the property, 
similar to the Austrian model, to Jews and non-Jews alike whose 
property was confiscated and never returned. But the Polish Parliament 
added a poison pill by limiting the program to current Jewish 
residents, and he vetoed the bill. The WJRO has worked with the State 
Department on this issue. To his credit, Secretary of State Mike Pompeo 
raised the issue directly with his Polish counterpart, but to no avail.
    In the art area there remain shortcomings at home and abroad. 
Several U.S. Courts do not give serious enough attention to the 
Washington Principles in deciding on claims, and claimants are often 
disappointed. The AAM should update its software to facilitate claims 
on its portal, and American museums should devote more resources to 
provenance research and stop efforts to use technical defenses to block 
claims.
    Abroad the problems are worse. Several key countries which agreed 
to the Washington Principles, including Russia, have largely ignored 
them. Insufficient provenance research has been done and inadequate 
resources are devoted to it, but this is central to art recovery. 
Several of the European art advisory panels have significant flaws. 
European art houses and art dealers have ignored the Washington 
Principles countries.
    The European Union has generally not been involved in Holocaust 
justice issues which they consider under the sovereignty of their 
member States. But they could and should do more to at least urge them 
to be forthcoming. In October 2018, the European Parliament's legal 
affairs committee (2017/2023 INI) prepared a draft report for the full 
parliament which explicitly endorses the Washington Principles on Nazi-
confiscated art and asks the executive arm, the European Commission, to 
develop common principles in this area.
    An important conference was organized by the German government on 
November 26, 2018--20 Years Washington Principles: Roadmap for the 
Future. It helped highlight the deficiencies in compliance with the 
Washington Principles and Terezin Declaration and gave a new impetus to 
their implementation. For example, a joint declaration signed by German 
State Minister Monika Grutters, Tom Yazdgredi, special envoy on 
Holocaust issues for the State Department, and me as expert adviser on 
Holocaust-era issues to the State Department, required German public 
museums to participate in Germany's Limbach Commission that hears 
Holocaust art claims, but was severely hampered by the refusal of 
museums to participate. In addition, their public museums were urged to 
do additional provenance research. This led recently to one museum 
alone finding over 40,000 looted artworks, books, and cultural objects.
    The French representative to the Berlin conference admitted France 
had not done enough. Now their NMR [National Museums Recovery] 
collection of art stolen by the Nazis from France and returned to 
France after the war will be subject to a thorough review, and their 
public museums are being urged to also do more provenance research. A 
special unit has been created in the French prime minister's office to 
oversee the process, and the CIVS [Commission for the Compensation of 
Victims of Spoliation], the agency which has administered compensation 
payments to French Holocaust victims has been charged with deciding art 
recovery claims.
    I have attached a copy of my keynote speech of November 26, 2018 to 
the Berlin conference, which includes specific recommendations for 
future action.
    From 2009 to 2017, I served as special advisor to Secretary of 
State Hillary Clinton and then Secretary of State John Kerry on 
Holocaust-era issues. In that capacity, in 2011, I negotiated along 
with U.S. Ambassador to Lithuania Anne Derse an $11 million agreement 
with Lithuania for their survivors (in lieu of property restitution).
    I led an interagency negotiation with the government of France, 
which included a team from the State Department legal advisor's office 
(Lisa Grosh was the lead attorney) and Justice Department, which 
produced a $60 million agreement in December, 2014, for those survivors 
who were deported by the French railway, SNCF, outside of France to 
concentration camps, spouses of survivors, and direct heirs of those 
survivors who had died after the war, and who were not now French 
citizens and had never benefited from the French program for French 
deportees. That program has recently made its final payments. In 
addition, and of their own volition, SNCF has paid $4 million for 
Holocaust education programs and institutions in the United States, 
including the U.S. Holocaust Memorial Museum.
    Also in 2009, I led the U.S. effort that produced the Terezin 
Declaration, with 46 countries, that urged countries to do more to 
assist their aging Holocaust survivors, to return looted assets, and 
strengthened the Washington Principles, for example, by stressing that 
they cover private museums as well as public museums. The American 
Alliance of Museums (AAM) has almost 30,000 artworks listed on a Nazi-
era provenance information portal (NEPIP), to ease the process for 
claimants to identify looted art and file claims (although by their own 
admission the software is old and not functioning well.)
    The 2010 best practices and guidelines for the restitution and/or 
compensation of real (immovable) property confiscated by the Nazis and 
their collaborators between 1933-1945, which I also negotiated under 
the auspices of the Czech government with over 40 countries, provided 
the first roadmap for the recovery of private property. But we have had 
much greater success with the return of or compensation for communal 
property (synagogues, schools, community centers, cemeteries) than with 
private property recovery. The government of Poland has returned 
several thousand synagogues to the tiny Polish Jewish community, but 
they are in such a state of disrepair as to be of little use. By 
contrast, the Czech government has restored to their former beauty what 
they call the ``ten stars'', ten synagogues partially destroyed by the 
Nazis, and which are used for cultural and occasional religious events.
    Holocaust justice began long before I became involved in the 
process. In 1952, the historic Luxembourg Agreement was reached between 
the prime minister of the new State of Israel, David Ben-Gurion, and 
West German Chancellor Konrad Adenauer in which the post-war German 
government recognized its responsibility for the horrors of the Nazi-
era. The German government created the BEG program of direct payments 
to Holocaust survivors, which continues to this day. Germany has paid 
over $60 billion in compensation. The agreement also led to the 
creation of the Jewish Material Claims Commission Against Germany, Inc. 
(The Jewish Claims Conference), a unique nongovernmental body 
headquartered in New York and Israel to officially represent Holocaust 
survivors in obtaining compensation from Germany. It negotiated 
programs like the Hardship Fund for Survivors who had spent a 
prescribed time in concentration camps, ghettos or in hiding; Article 
Two pensions for survivors in Western Europe, the United States, Israel 
and around the world, and a similar one after the end of the cold war 
for survivors in the former Soviet Union and east bloc, who had never 
received compensation, which are income based. Only survivors (with a 
few minor exceptions for widows and widowers) are entitled to payment, 
not their heirs, for they were the ones who suffered.
    Since I became the lead negotiator in 2009, with my co-chair Roman 
Kent and several of his fellow Holocaust survivors from the U.S., 
Israel, and Europe, we have negotiated over $9 billion in additional 
compensation, expanding coverage to flight victims who fled to the 
Soviet Union to escape the onrushing German military; a new one-time 
payment for child survivors to recognize their special suffering; a 
payment to widows of Article Two recipients and just this year in 2019 
a payment to widows of righteous gentiles who saved Jews during the 
war; liberalized conditions for eligibility of earlier programs like 
the Hardship Fund; and significantly higher monthly pension payments. 
We have placed special emphasis on home care and food, medicine and 
social services for elderly poor survivors around the world and in the 
United States. Home care workers help survivors with the basic elements 
of everyday living: preparation of meals, provision of medicine; access 
to doctors; transportation to activities with other survivors. Services 
are generally provided through Jewish federations in the United States; 
the American Jewish Joint Distribution Committee's Chesed program in 
the former Soviet Union and Central and Eastern Europe; and a special 
agency in Israel.
    In 2009 the worldwide homecare budget was 34 million euros; in 2019 
it is over 400 million euros. Coverage has gradually expanded so that 
now that some 6000 of the most needy of the survivors received 24/7 
coverage and other poor survivors generally are entitled to up to 50 
hours per week of home care.
    As part of the Luxembourg Agreement, a claims process was created 
to provide compensation to Holocaust survivors or the heirs of those 
who were murdered and who owned real property in Germany confiscated by 
the Nazis. After the end of the cold war, the fall of the Berlin Wall, 
and the reuniting of post-war Germany, the Jewish Claims Conference and 
the new Federal Republic of Germany created successor organizations, 
administered by the Jewish claims process, which were given title to 
the confiscated Jewish property in the former East Germany. A claims 
process was created which allowed thousands of survivors to recover 
their property or receive compensation for it. After the close of the 
claims process, heirless property, for which there were no living 
survivors or heirs, was sold by the Jewish Claims Conference: 80 
percent of the proceeds were distributed to Holocaust survivors and 20 
percent has been used to support Holocaust education and remembrance 
programs and institutions, from the U.S. Holocaust Memorial Museum and 
Yad Vashem to the March of the Living, in which young students are 
taken to Auschwitz/Birkenau and then to Israel. The Jewish Claims 
Conference has been the largest supporter of Holocaust education and 
remembrance programs in the world. At its peak 2 years ago, they 
distributed $18 million annually. But the runoff from the properties 
has dramatically declined to $9 million in 2019 and will soon be out of 
funds.
    At a time of increasing anti-Semitism and Holocaust denial, this is 
a drastic problem. In our recent 2019 negotiations with the German 
finance ministry, while we obtained an additional $50 million in 
benefits for Holocaust survivors in increased pensions and homecare, we 
also obtained for the first time a commitment by the German government, 
which has done so much to provide Holocaust education within Germany, 
to support Holocaust education worldwide, in cooperation with the 
Jewish Claims Conference. Details are being discussed now, with the 
hope their support will commence next year, in 2020.
    Still, with all of these programs, of the 400,000 Holocaust 
survivors alive today, over 80 percent in the former Soviet Union and 
Central and Eastern Europe; 35 percent in Israel; 40 percent of the 
40,000 survivors in the New York City area live in or near the poverty 
line. It is unacceptable that survivors who lived such a traumatic life 
in their early formative years should have to live in degradation and 
poverty in their declining years. I hope Congress in general and this 
commission in particular can help call attention to this dire 
situation. As we lose around 6 percent of survivors each year, there is 
an urgency for action.
    While time does not permit me to discuss other efforts at providing 
justice to victims of state-supported injustice, I would direct the 
commission to two examples, one well known and the other almost 
unrecognized. To heal the divisions from decades of brutal apartheid 
rule by the white minority government of South Africa, newly elected 
President Nelson Mandela signed legislation in 1995 that created the 
Truth and Reconciliation Commission chaired by Archbishop Desmond Tutu. 
This commission was not created to provide compensation to those who 
directly suffered under the apartheid regime. Rather the commission was 
to investigate apartheid-related crimes by taking testimony from 20,000 
men and women who were persecuted and, under an amnesty from the 
perpetrators, develop a report on the dimensions and consequences of 
apartheid. It was specifically designed to help reconcile those who 
suffered and those who directly persecuted South Africa's black 
population or who more generally supported and economically benefited 
from apartheid.
    On receiving the report on October 31, 1998, Mandela recognized 
that many would be disappointed by the ``punitive justice and a 
peaceful transition'', but ``accepted the report as it is, with all its 
imperfections . . . to help reconcile and build our nation.''
    Less well known, but relevant to your important hearings, was how 
the newly reunited government of Germany sought to provide justice to 
the victims of Communist East German oppression by the German 
Democratic Republic. (See Julian Junk and Jonathan Miner, 
``Compensating Historical Injustice: More Than Just Money'', Humanity 
in Action) some 140,000 East German citizens were imprisoned for 
political opposition to their oppression, often under brutal 
conditions. Unlike the slave labor agreement I negotiated in July 2000 
with the Federal Republic of Germany for Holocaust-era repression, this 
was an internal German response to the repression of their own 
citizens. One law in 1992 provided political prisoners with a one-time 
payment of 300 euros for each month they were in jail, and their 
criminal records were erased. A second law in 1994 dealt with issues of 
professional and administrative persecution. But there was little 
punishment for the former perpetrators.
    Thank you for the opportunity to testify on this important and 
timely topic.




    State Minister Grutters, Ambassador Lauder, Deputy Ambassador 
Quinville, Ambassador Descotes, Minister Nir-Feldkein, Ladies and 
Gentlemen, I am deeply grateful to State Minister Monika Grutters for 
initiating and organizing this conference: ``20 Years Washington 
Principles: Roadmap for the Future,'' and to her State Secretary 
Guenter Wanands for his excellent work and that of his staff. I may 
have negotiated with the German government over the past two decades 
more than any other person, and I can proudly state that your 
determination to keep alive and to encourage compliance with the 
Washington Principles on Nazi-Looted Art, for which I was the principal 
negotiator as Under Secretary of State and Special Representative of 
the President and Secretary of State on Holocaust Issues, is yet 
another inspiring example of Germany's commitment to Holocaust justice 
and memory.
    I also want to acknowledge at the outset the stirring and 
indispensable leadership Ambassador Ronald Lauder has provided over the 
years, and to recognize his critique regarding the shortcomings of 
implementing the Washington Principles. His remarks are all the more 
reason that it is crucial that we use this ``Specialist Conference'' as 
a launching pad at the highest political level to implement the 
Washington Principles fully by all of the 44 countries who agreed to 
them, particularly those who were most involved either as perpetrators 
during World War II in looting Jewish artworks and cultural objects or 
who traded in them after the War. The Holocaust was the most ghastly 
genocide in human history, the wanton murder of six million Jews and 
millions of other victims. But it was also the greatest theft in 
history, not simply for money for the Third Reich, but to wipe out all 
vestiges of Jewish culture, by stealing their artworks, cultural 
objects, books, photographs, and musical instruments.
    Now more than 70 years after the end of World War II, and 20 years 
after the Washington Principles were promulgated, this may be our last 
opportunity to right in some imperfect way one part of the most ghastly 
crime in human history, before all of its 400,000 Holocaust survivors 
breathe their last breath. The impetus behind the Washington Principles 
was never simply an effort to restitute expensive masterpieces, 
although that is what makes the headlines, but to return artworks and 
cultural property that had special meaning to families, the vast 
majority of which had far more intrinsic value to them that their 
modest market value. Like the murder of six million Jews, there was 
nothing casual about the Nazi looting; their efficiency, brutality, and 
scale remain unprecedented in human history. Experts estimate that 
600,000 paintings were stolen, of which more than 100,000 are still 
missing seven decades after the War. When furniture, china, books, 
coins, and items of decorative arts are included, the numbers swell 
into the millions.
    Since the conclusion of the Washington Conference and adoption of 
the Washington Principles 20 years ago, reaffirmed by the Vilnius Forum 
Declaration in 2000 and the Terezin Declaration in 2009, we have made 
giant strides toward achieving the goals of identifying, publicizing, 
restituting, and compensating for some of the looted art, cultural 
objects, and books, and in so doing, providing some small measure of 
belated justice to some victims of the Holocaust or their heirs. We 
could not have foreseen how relevant this issue would still be 20 years 
later.
    But we must candidly confront the unfulfilled promises we solemnly 
made.
    Even at the height of the War, the Allies were not oblivious to the 
widespread theft of art and cultural works. On January 5, 1943, they 
issued the London Declaration, calling on neutral nations not to trade 
in art looted by the Nazis. U.S. Army commanders facing the German army 
willingly agreed to include art curators and experts in their army as 
``Monuments, Fine Arts, and Archives'' officers who risked their lives 
to preserve Europe's cultural heritage and that of Jews in the closing 
months of the war. As they crossed the German border, these ``Monuments 
Men'' found a wealth of looted art and cultural objects that they 
dispatched to collection points to be catalogued and eventually 
returned to their owners. President Harry Truman ordered the looted art 
objects to be repatriated by the military as quickly as possible but 
locating individual owners in the chaos of the war's end was 
impossible. So under Military Order 59, following international legal 
precedent, the U.S. and British commands returned the art objects to 
their countries of origin and relied on each government to trace the 
owners and ultimately return the stolen property. This reliance was 
often misplaced. Many of the works that were returned by the Allies 
after the War were incorporated into the collections of public museums, 
rather than going back to their owners.
    The Washington Conference on Holocaust-Era Assets and the 
Washington Conference Principles on Nazi-Confiscated Art did not come 
out of thin air. Fifty years after the end of the War, the wall of 
silence on Nazi looted art was breached by four scholars I met during 
my work on art recovery, based upon newly declassified Allied war 
documents and Central and Eastern European archives open after the end 
of the Cold War: Jonathan Petropoulos Lynn Nicholas, Konstantin 
Akinsha, and Hector Feliciano and an international conference organized 
in January, 1995, by Professor Elizabeth Simpson of the Bard Graduate 
Center for the Studies in the Decorative Arts.
    But the issue had not come to the attention of governments and the 
general public. The Clinton Administration, including President Clinton 
and Secretary of State Madeleine Albright, along with my team at the 
State Department, headed by J.D. Bindenagel, and I determined to change 
this.
    On the road to the Washington Conference, public attention was 
further piqued by a U.S. House Banking Committee hearing on assets 
stolen during the Holocaust, including looted art and cultural 
property. Congressman James Leach (R-Iowa), chaired the February 1998 
hearing, which included a star witness: Philippe de Montebello, the 
longtime director of the Metropolitan Museum of Art in New York. This 
was no academic matter for him: de Montebello recalled as a child 
``keeping one step ahead of the Gestapo and the Vichy government, with 
a father who was serving in the Resistance.'' Pressed by Leach, he 
promised the Association of Art Museum Directors (AAMD), to which over 
200 American art museums belong, would present guidelines to address 
looted art.
    The AAMD created a Task Force on the Spoliation of Art During the 
Nazi/World War II Era (1933-1945), with de Montebello as chair and the 
country's most powerful museum directors as members. He presented their 
principles on June 4, 1998: American art museums would immediately 
begin researching their collections for looted art; publish information 
in a centralized and publicly accessible database to assist Holocaust 
victims and their heirs locate their possessions; seek all possible 
information about the history of the ownership--its ``provenance'' in 
the art world--of any work before acquiring it; refuse any works 
showing evidence of unlawful confiscation during the War years, 1933-
1945; seek warranties from sellers of valid title free of potential 
claims; and, finally, and crucially, resolve by mediation any claims 
against pieces in a museum's collection ``in an equitable, appropriate, 
and mutually agreeable manner.''
    Twenty years ago, we knew we faced challenges to get 57 
delegations, 44 countries, and 13 NGOs to agree on principles they 
would follow to open archives, fund research into the provenance of 
long-closed collections, notify potential claimants, and provide 
processes for a ``just and fair solution'' for the recovery or 
compensation of looted artworks and cultural property, recognizing the 
differing legal systems of the participating nations and that they 
would act within the context of their own laws. The Washington 
Conference Principles were not a legally binding international treaty 
but depended upon the good will and political determination of 
governments for their implementation.
    The Washington Principles were reaffirmed by the Vilnius Forum 
Declaration of October 5, 2000 urging ``all governments to undertake 
every reasonable effort to achieve the restitution of cultural assets 
looted during the Holocaust era to the original owners or their 
heirs.'' More than ten years after the Washington Principles, 47 
countries adopted the Terezin Declaration in 2009 encouraging ``all 
parties including public and private institutions to apply them as 
well,'' and emphasizing that the Nazi confiscation, sequestration, and 
spoliation of art and cultural property was accomplished "``through 
various means including theft, coercion and confiscation, and on 
grounds of relinquishment as well as forced sales and sales under 
duress during the Holocaust era 1933-1945.''
    In making a fair assessment of the success of the Washington 
Principles, I believe the glass is slightly more than half-full, but 
that is not satisfactory. It is time for one last push to correct the 
flaws in implementing the Washington Principles, both in my country, 
the United States, and in key countries which still have Nazi-looted 
art in their possession. With the assistance of advanced digital 
technology, which did not exist at the time of the Washington 
Conference, there can be no excuse for failing to have the widest 
distribution of information about Nazi-looted art and cultural 
property, including books. No museum, state-controlled or private; no 
art gallery or collector; no auction house; no private owner, should 
want to hold or deal in Nazi-looted artworks, stripped in the most 
violent way from their owners during World War II. Every nation that 
committed to the Washington Principles and the Terezin Declaration 
should redouble its efforts to identify, publish, and restitute or 
compensate or find other ``just and fair solutions'' when an owner or 
heir has a legitimate claim.
    More broadly, good faith implementation of the Washington 
Principles can help in a more general way beyond Nazi-looted art, by 
creating a more transparent global art market, with greater assurance 
that buyers and sellers have the fullest information about the 
provenance of the art in which they are dealing.







    The Met's Philippe de Montebello proclaimed at the final plenary 
adopting the Washington Principles that ``the art world would never be 
the same.'' He was correct. Before the Washington Principles, 
provenance research was limited, the issue of Nazi-looted art largely 
unrecognized except in the domain of a few scholars and claims and 
restitution virtually non-existent. As de Montebello put it to me, 
business as usual ``has changed dramatically; the whole psychology has 
changed. Art dealers, galleries, museums now check the ownership of 
paintings from Europe to determine if there are gaps from the World War 
II era which might indicate the painting had been confiscated. And if 
so, they are posting the information on Web sites.''



    The crucial, initial step that must be taken to give life to the 
Washington Principles and hope to those whose artworks were stolen from 
them or their families is for museums, galleries, and auction houses 
both to research the provenance of the art they possess or handle, and 
to post the results in an accessible fashion. In today's digital world, 
the Internet has become a 21st century way to shine the light on 
possible Nazi-looted art.
    The pathbreaker was Ambassador Ronald Lauder, who established the 
Commission for Art Recovery in 1997, and then used it to monitor and 
aid in the implementation of the Washington Principles. There are now a 
proliferation of websites posting details on potentially confiscated 
Nazi-looted art, imperfect though they are in still not including all 
the art in the collections of museums that has suspect provenance 
during the War years : the Commission for Looted Art in Europe; the 
International Portal for Records Related to Nazi-era Cultural Property 
(International Research Portal) hosted by the U.S. National Archives 
and Records Administration (NARA) with 22 institutions across Europe, 
Israel, and the U.S. to help families, researchers, and historians, by 
cataloging and publicizing not only the possible Nazi-looted objects 
but the archival records that may contain information on looted 
objects.
    I welcome the new initiative of the Commission for Art Recovery and 
the Jewish Claims Conference to establish the Jewish Digital Cultural 
Recovery Project, to develop a database that, through the use of 
various public archival sources, provides comprehensive and precise 
documentation of cultural objects forcibly displaced and plundered 
during the Nazi-era from the time of their spoliation to the present, 
and visual, narrative, and educational components to help disseminate 
the content of the database to academic and lay audiences. The project 
will also create a network of governmental and heritage institutions 
that collect European documents closely cooperating on developing the 
database, disseminating best practices, and promoting further research 
on Nazi-looted artworks. The American Alliance of Museums (AIM) has 
almost 30,000 works from 179 American museums listed on the Nazi-Era 
Provenance Information Portal (NEPIP), admittedly faulty though it is, 
and the privately-owned Art Loss Register database of art losses.
    In addition, Austria, France, Germany, the Netherlands, and the 
United Kingdom have websites listing suspect artworks that may have 
been confiscated by the Nazis. France has focused most of its attention 
on researching the some 2000 works in their MNR collection (National 
Museums Recovery), which are works taken from French victims to Nazi 
Germany and later returned after the War to France. In 2017, for the 
first time, the French listed all its MNR collection. France has also 
participated in opening its archives and in the Claims, Conference's 
ERR/Jeu de Paume database, the first integrated looted art database.
    Now private German collectors are allowed to seek government 
assistance to check the provenance of the works in their collection, as 
long as they uphold the Washington Principles if a work is found to 
have been looted during the Nazi era. In addition, France is now 
cooperating with Germany on provenance research projects and recently 
decided to coordinate its research and claims process.


    Germany in 1999 reaffirmed the Washington Principles in a Joint 
Declaration between the German Federation, the Lander (Federal States) 
and the National Associations of Local Authorities, and in a 2001 Joint 
Declaration adopted non-legally binding Guidelines (Handreichung) for 
their public institutions and museums. In 2003 Germany created an 
Advisory Commission (Limbach Commission after its first chair) to 
review claims to Nazi-looted art. In 15 years, it has advised on 15 
cases. There have been reforms to the Advisory Commission up to 2016, 
when the tenure of members of the Commission was limited, 
representatives of Jewish institutions were appointed to the 
Commission, and the Commission was permitted to use outside experts to 
provide advice to guide its decisions (although only 5 million = were 
allocated). Shortly before the opening of the Berlin Conference, Monika 
Grutters announced another welcome, major reform: for the first time 
the Commission will be able to act upon a claimant's application alone, 
without the approval of museums funded by the Federal Government, which 
had previously been able to block claims; ``the relevant museum will no 
longer be able to refuse such action.''
    Since Monika Grutters became Federal Government Commissioner for 
Culture and the Media in 2013, there has been a welcome acceleration of 
action. She has increased the German budget from provenance research 
from one to nearly seven million Euros. She helped establish the German 
Lost Art Foundation (DZK) in 2015 that organizes and funds provenance 
research. The Foundation's definitions of Nazi-confiscated property set 
a standard for other nations to emulate. They broadly define a cultural 
asset to include items of historic, artistic or other cultural or 
identity building significance, including articles of daily use, 
recognizing that their origin and fate are more significant than the 
art historical value of the item. The Foundation has also defined 
confiscation through Nazi persecution to include not only theft, but a 
loss of assets suffered as a ``result of forced sale, expropriation, or 
other means.'' They also cover ``flight assets''--artworks sold out of 
necessity during times of economic hardship, without physical coercion, 
either in Germany or abroad.
    Commission Grutters also set-up a task force and a provenance 
research project under the DZK to review the trove of Gurlitt artworks 
first discovered in 2012 and appointed two experts from outside Germany 
to the advisory commission. She also initiated the Cultural Property 
Protection Act and has left the door open for it to include restitution 
of Nazi-looted art.
    The Austrian Restitution Advisory Board reviews looted works of art 
held in the Austrian Federal Museums and makes recommendations to the 
competent federal minister. Austria has been a model of commitment to 
restitution. Austria has restituted the most artworks and cultural 
objects, over 30,000, and while the process is not without some 
mistakes, their progress is significant.
    The Netherlands created the Origins Unknown Committee (Ekkart 
Committee), which led to the Dutch Restitution Committee (the Advisory 
Committee on the Assessment of Restitution Applications) to review 
claims against the works of art located in the ``Netherlands Art 
Property or NK-collection.'' This consists of art forcibly taken by the 
Nazis from the Dutch, taken to Germany during the War, and returned 
thereafter. The Dutch government adopted a liberal and generous 
restitution policy based on the recommendations of the Ekkart 
Committee. For example, all sales of works of art by Jewish private 
persons in the Netherlands from May 10, 1940 onward were to be treated 
as forced sales, unless there was express evidence to the contrary; the 
rightful claimants should be given the ``benefit of the doubt'' 
whenever it is uncertain whether the seller actually enjoyed the 
proceeds; restitution should occur if the claimant has established 
title ``with a high degree of probability.'' The Dutch took an early 
lead among European countries but there seems to be some backsliding. 
There are some 3800 looted artworks in the NK Collection which have yet 
to be returned.
    France to its credit, undertook a major internal review last year 
of its handling of cultural property looted during World War II. 
Following a searching report in February 2018 by David Zivie, director 
of the Ministry of Culture to Francoise Nyssen, French Minister of 
Culture, on impediments to restitution and compensation for Nazi-
confiscated artworks and cultural property, the French government 
announced reforms on July 22, 2018, the commemoration date of the Vel 
dHiv roundup of Jews. They announced that the CIVS (Commission for the 
Compensation of Victims of Spoliation), which has done an admirable job 
of Holocaust compensation for French Holocaust victims, would be 
mandated to undertake what they call ``the Mission'' to address Nazi-
looted art claims. I hope the new Minister of Culture will continue 
with the plan of his predecessor to centralize restitution issues in 
the Mission and provide sufficient financial support.
    The United Kingdom has a well-functioning Spoliation Advisory 
Panel, but to further improve it, Sir Paul Jenkins was asked to conduct 
an independent review of the Panel and submitted a report in 2015 with 
a series of recommendations, many of which have apparently been 
approved. They have been a leader in digitizing almost all of their art 
collections in public museums, to their credit.


    Germany has funded the German/American Provenance Research Exchange 
Program for Museum Professionals (PREP), along with the Smithsonian 
Institution and other museums to advance World War II-era provenance 
research in museums, libraries, and research institutions in both 
countries. And France and Germany are beginning to discuss joint 
programs. Last month, on October 4, 2018, Commissioner Grutters on 
behalf of the German Federal government entered into a Memorandum of 
Understanding with the Israeli government in light of their joint 
cooperation in researching the Gurlitt Art Trove, the importance of 
acquainting the Israeli public with the history of Nazi-looted art, and 
the tragedy of the Shoa, to have it exhibited in Israel in 2019. This 
sets a standard for the exhibition of heirless art based upon a 
temporary loan to Israel.


    With all the legitimate frustrations, a very sizable number of 
Nazi-looted artworks have been restored to their owners, or 
compensation given in lieu of restitution. Austria has restituted over 
30,000 cultural objects to their rightful owners. While German museums 
are unfortunately not mandated to report their restitutions and 
financial settlements, the German government in their Joint Declaration 
with the U.S. government of November 26, 2018, has stated that Germany 
has returned over 16,000 individual objects (5746 art objects and more 
than 11,700 books) to Holocaust survivors of their families in the 20 
years since the Washington Principles. Perhaps encouraged by this 
Berlin Conference, the Netherlands Museum Association recently 
announced that, after years of research, 42 Dutch museums have 
discovered over 170 artworks in their collection with problematic 
histories during the Nazi occupation, which may have been looted or 
sold under duress. It is noteworthy that the Washington Principles have 
inspired efforts by Germany to explore their art acquired from their 
colonial possessions, and that in the U.S. claims from the Cuban 
revolution are surfacing.
    The AAMD has reported that as of the time of the Berlin Conference, 
their member museums have returned or resolved claims to 54 Nazi-looted 
artworks through negotiation, and another five have been resolved 
through litigation.
    Christie's, the art auction house, has helped resolve some 100 or 
more claims to art with suspicious World-War II related provenance, 
given to it for auction or sale since the Washington Principles were 
promulgated.


    We must candidly address the shortcomings in implementing the 
Washington Principles on Nazi-Confiscated Art.


    First, several key countries have made virtually no effort to 
comply with the Washington Principles, although they agreed to them. 
Under the recently enacted 2018 Justice for Uncompensated Survivors 
Today Act (JUST), the State Department is required to report by October 
2019 on the degree to which countries, including the United States, are 
complying with the Washington Principles.
    Hungary is in possession of major works of art that were looted on 
its territory during World War II, and has not restituted them, 
although having been repeatedly asked to address this issue. I 
mentioned Hungary at the 2000 Vilnius Forum as a country which refused 
to implement the Washington Principles, despite the fact that their 
wartime government sanctioned the confiscation of artworks and cultural 
property from their Jewish citizens. Unfortunately, I cannot report any 
change of attitude by the current Hungarian government. They have 
refused to return these artworks to their rightful owners. They have 
refused to take their historic responsibility for the systematic 
looting of art from their Jewish citizens. They have undertaken some 
provenance research in their museums and located some looted art that 
is not owned by the state, but they have never made the results of 
their research public. Hungary has enacted a decree on the Order of 
Restitution of Cultural Assets Held in Public Collections Whose 
Ownership Status is Disputed, but only claimants of non-Jewish origin 
have received any works back.
    Poland was overrun by the Nazis and lost some three million of 
their non-Jewish citizens, as well as three and half million of their 
Jewish citizens to the Nazis. Any artworks and cultural property that 
was confiscated from their Holocaust victims would have been 
confiscated by the Nazis. But it appears there are artworks confiscated 
from Jews and other victims in other countries, like the Netherlands, 
that are now in Poland as a result of the Nazi-looted art trade during 
the War. The Origins Unknown Agency of the Netherlands has a list of 
scores of paintings that are thought to be in Poland. It would be 
useful for joint Dutch-Polish cooperation in provenance research to 
clarify this situation, but to date the Polish government insists they 
will only handle Polish artworks that had been taken out of Poland. 
Their focus has been to repatriate what they lost from their public 
collections.
    Spain also has taken no steps to implement the Washington 
Principles, and in one dispute involving a Nazi-looted artwork that 
belonged to an American family, the Spanish government took the 
position that the Thyssen Museum which possessed it was a private 
museum not covered by the Washington Principles.
    Russia suffered greatly at the hands of the Nazis during the War. 
The Red Army took substantial artworks from Germany at the end of the 
War as partial compensation for their grievous losses, but this 
included some art the Nazis had taken from German Jews. At the 
conclusion of the Washington Conference, the Russian government 
representative joined my closing news conference to announce their 
restitution of one such work in their collection. They also passed a 
law that distinguished their trophy art from that which belonged to 
Jews and would be treated according to the Washington Principles. There 
has been some provenance research started at Russian cultural 
institutions, and some is recorded on an electronic database of all 
displaced cultural property and is also published in scientific 
publications and shown in exhibits. But there has been no restitution 
of any Nazi-looted art, nor any process for their identification or 
handling of claims.
    The Italian federal government made some art and cultural property 
restitution shortly after the end of World War II. They endorsed the 
Washington Conference Principles and Terezin Declaration. Immediately 
following the Washington Conference, the Italian government created the 
Anselmi Commission with cultural experts, scholars and members of the 
Italian Jewish community, which made recommendations in 2001 on ways to 
comply with the Washington Principles, although the Commission focused 
more on Nazi-looted art than on spoliation of Jewish cultural property 
under Mussolini. But their recommendations have been largely ignored. 
Unfortunately, there has been no provenance research or listing of 
possible Nazi-looted art in their public museums by the Italian 
government, although the European-Union backed TranscultAA Project has 
been doing good provenance research on Italy. Italy's main interest is 
in what the Italian government lost. There is a particular problem with 
various cities and provenances, where much of Italy's art collection is 
maintained, which have ignored the Washington Conference Principles. 
Some private Italian art dealers have facilitated settlements of Nazi-
looted art claims. Italy has demanded restitution of ancient cultural 
property looted from their territory. It is hoped they would follow-
through in a similar fashion in complying with the Washington 
Principles.
    Unfortunately, there are a long list of other countries, in Latin 
America and in Europe, which participated in the adoption of the 
Washington Principles, but have done nothing to research the provenance 
of the collections in their public museums or to restitute even a 
single art work or cultural property.


    Most key countries do not devote sufficient funds and human 
resources to expedite provenance research, and so it proceeds at a 
snail's pace. It is critically important that the United States, which 
was the prime mover in negotiating the Washington Principles, be the 
exemplar for the rest of the world. But the U.S. has not done nearly as 
much as we should. Provenance research of Nazi-looted art by our 
private museums is constrained by a lack of funds and the absence of a 
large cadre of trained provenance researchers, but more broadly by the 
low priority our museums have given to provenance research of Nazi-
looted art in their collections, without which the Washington 
Principles cannot be properly implemented.
    Indeed, it is long overdue for the AAMD to do an objective, 
thorough study of how its member museums have complied with the 
Washington Principles. We know that museum budgets are tight, but 
priority should be given to this important, moral task related to Nazi-
looted art. There are standard setters who could be emulated, like the 
Boston Museum of Fine Arts, which has made provenance research a 
priority for their budget.
    Most museums in Europe have not even started provenance research, 
and those that have begun are nowhere close to completing their 
provenance research either, with very few exceptions, In France, 
budgets for archival records appear to be reduced. France's other major 
problem is having no de-accession law to allow its public museums to 
remove Nazi-looted artworks from their collections, beyond the more 
limited MNR collection. Until such a law is enacted, claimants will not 
be able to be reunited with their families' looted art, and France will 
lag behind other Western European nations.
    Moreover, France and the Netherlands face similar problems on 
provenance research. France has focused most of its effort on their MNR 
(National Museums Recovery) collection-- works taken from French 
victims and later returned from Germany for restitution to their 
rightful owners. The Netherlands focus on their Netherlands Art 
Property (NK collection), which consists of art forcibly taken back to 
Germany by the Nazis, and later returned to the Dutch after the War. 
But neither country gives priority to researching the provenance of art 
in their other public collections and major museums. The effort has 
been advancing at a snail's pace due to inadequate funding and legal 
support, and to the fact that provenance research at French museums has 
not been a priority.
    There is a discrepancy as to how a claim is assessed depending on 
whether it belongs to the NK-collection or to other Dutch public 
collections, where the process is less transparent.
    Neither Netherlands, nor France should not treat restitution of 
claims to Nazi-looted art in their national collections any differently 
from claims to artworks in their NK- or MNR- Collections of Nazi-looted 
art shipped to Nazi Germany and later returned after the war. If a 
Nazi-looted artwork is in the collection of a public museum, that 
museum should not keep the work without the agreement of the claimant.
    When part of the Gurlitt collection was given to the museum in 
Bern, Switzerland, they took the positive step of having the German 
task force reviewing the bulk of the collection, also review their 
Gurlitt art to assure it was not Nazi-looted art. However, at the time 
of the Swiss bank settlement in the 1990s, the banks wanted art to be 
covered by the overall financial settlement. This did not occur, 
because it would have been unfair to potential claimants of Nazi-looted 
art. There has been some provenance research and some restitution by 
Switzerland, but because during the period 1933-1945, many Jews who 
were fleeing sold their art in Switzerland, it has been insufficient. 
The biggest contribution Switzerland could make for the Washington 
Principles, would be to open their private museums and the archives of 
their art dealers for easy accessibility by provenance researches.
    Many German federal museums have done significant provenance 
research and have data on their artworks which have been looted by the 
Nazis. But there is no federal German government authority that has 
provided an overview, by asking German federal museums to disclose how 
much provenance research they have done of their collections, how many 
are suspected to be Nazi-looted artworks, and what timetable they have 
to complete their research of their collections. The Lander could be 
asked to do the same for their museums.


    Court systems in Europe are rarely practical ways to implement the 
Washington Principles because of statutes of limitations and adverse 
possession laws which frequently legitimize the transfer of ownership 
even of stolen goods. This means only mediation and advisory opinions 
by panels created by governments are available to give meaning to the 
Washington Principles. To their credit, Germany, Austria, the 
Netherlands, the United Kingdom, and France have created such advisory 
panels and committees. But several problems impede their success.
    The Washington Principles call for commissions or other bodies to 
identify art that was confiscated by the Nazis and to assist in 
addressing ownership issues to have a ``balanced membership.'' But some 
European countries consider this only to mean a variety of their own 
professionals from different disciplines. Instead, the best practice 
would be that they should also include international experts and ones 
that are familiar with the perspectives of both claimants and museums.
    France has a commission for looted art recovery, and under their 
new proposal, CIVS, which has handled Holocaust compensation for French 
survivors, has been given the responsibility, along with several art 
experts, to deal with Nazi-looted art claims, and appears to be doing 
so efficiently. But because France has no de-accession law, CIVS can 
only provide compensation to claimants, not restitution of the artworks 
themselves, unless they can determine that the accession into the 
national register was by a mistake. Moreover, the focus of French 
efforts is on their MNR collection, not their public museums.
    The Netherlands panel, which was established in 2003, had an 
enviable record, recommending the return of hundreds of works of art. 
But recently, there is significant criticism of their panel, based upon 
new stricter Dutch policies for returning looted art, in which a 
decision on restitution is based upon a balance of interests between 
the interests of national museums against the claims by Jewish 
Holocaust survivors or their heirs. The panel is instructed to weigh 
``the significance of the work to public art collections'' against the 
emotional attachment of the claimant, and they even look at the degree 
of persecution. This balance of interest test is contrary to the 
Washington Principles. In 2016, under the new policy, all seven claims 
it considered were rejected by the Panel. I would urge the Dutch 
restitution panel to follow the practice of the UK Spoliation Panel, 
which is more consistent with the spirit of the Washington Principles: 
once theft is established, the emotional connection of the claimant to 
the artwork or the degree of Nazi persecution should not be balanced 
against the method of acquisition of the museum or its importance to 
their collection. Plain and simple, they should not hold Nazi-looted 
art which does not belong to them. That is the only way to do justice 
to the original victim of Nazi persecution.
    Despite welcome amendments in 2016 and the further welcome reforms 
just announced by Monika Grutters to its Rules of Procedure, the German 
Limbach Commission must implement these reforms. In 15 years only 15 
cases have been resolved, and their concept of ``balanced membership'' 
called for by the Washington Principles precluded any non-German, 
international participation. There is a Bundestag inquiry into the 
Limbach Commission's management of Nazi-looted art claims. We recognize 
the federal nature of the German government and the sovereign rights of 
Lander (States ) on cultural issues. Just as they have so meaningfully 
done for decades in negotiating compensation issues for Holocaust 
survivors for Nazi crimes, perhaps the Federal German Government also 
could accept responsibility for ``just and fair solutions'' to Nazi-
confiscated art, as called for by the Washington Principles., rather 
than deferring to the Lander (States) in this unique situation. They 
were given the looted property by the Federal Government in the first 
instance. Artworks touched by genocide could be subject to the Federal 
Government's determination of their status. Hopefully, the states and 
museums could then follow the Washington Principles themselves. Of the 
16 Lander who were signatories to the Joint Declaration, only a small 
fraction have implemented a restitution process.
    The announcement by Commissioner Grutters of the 16,000 artworks 
and books returned is admirable. But since the Washington Principles, 
there has not been a comprehensive review of the amount of provenance 
research done by German public and private museums, and the amount of 
provenance research undertaken, and the number of art objects 
classified as potential looted art is unknown.
    We take note of concerns presented to the U.S. government by 
private parties regarding Germany's handling of Nazi-looted art: the 
need for German museums to put their art collections online, along with 
their respective provenance to provide transparency in their holdings 
and to enable potential claimants to search for confiscated works; to 
publicly report on their restitutions and other settlements of claims, 
and on their progress in using the enhanced public funds that Minister 
Grutters has obtained from the Federal Government for greater 
provenance research; the absence of a single institution or point of 
contact to help claimants with their claims. Moreover, despite 
Germany's recognition that the Washington Principles apply to private 
museums and collections as well as public ones, there has been very few 
restitutions of Nazi-looted art in the hands of private foundations and 
individuals. A Holocaust Survivor or heir has no legal means to get 
their Nazi-looted art back if it is in private hands, and without 
German auction houses following procedures like Christie's and 
Sotheby's, they are being placed on the art market, denying survivors 
or their heirs with the opportunity to make claims.
    The question of ownership of heirless art has not been addressed 
and unclaimed Nazi-looted art remains in German museums, which have de 
facto ownership until a survivor or heirs come forward. The German 
government might, for example, reach a mutually agreeable means of 
handling heirless art with Jewish organizations and the State of Israel 
once provenance research is completed and we have a better 
understanding of the art included in this category.
    The experience of the United States underscores the mixed report 
card in the 20 years since the Washington Conference. The United States 
has a unique situation. Except for the National Gallery, the major 
museums in the U.S. are private, not public as in Europe. There is no 
ministry of culture to sponsor legislation and oversee provenance 
research, which is the norm in most western European countries. 
Moreover, there is the sheer magnitude of the task: The UK has about 
3000 public museums, and Germany about 6000; the U.S. is home to over 
35,000 largely private museums. Fortunately, there is a culture of 
self-regulation in the U.S. Among the more than 18 million objects held 
by American museums, those institutions have identified approximately 
25,000 works which, though not necessarily stolen by the Nazis, require 
further research into the ownership during the Nazi era, and have been 
published on their websites and on centralized databases to assist 
claimants. Based on this research, between 1998 and 2006, twenty-two 
works in American museum collections have been identified as having 
been stolen by the Nazis and not restituted, and either the works have 
been returned to Holocaust victims or settlements have been reached 
with heirs.
    The Washington Principles were heavily influenced by the U.S.-based 
Association of Art Museum Directors guidelines. The AAMD has stated 
that their ``commitment to these core values and the success of its 
members in the identification, recovery and restitution of works seized 
by the Nazis have ensured that America's art museums are among the most 
trusted and respected public institutions in the world.'' The Nazi-Era 
Provenance Internet Portal (NEPIP) database, created by the AAMD and 
hosted by the American Alliance of Museums was a great innovation, 
providing information on looted objects or objects with significant 
gaps in their provenance. There are 179 U.S. museums that have listed 
over 29,000 covered artworks in the United States that passed through 
Europe between 1933 to 1945 in a portal that was designed to permit 
families to examine this database for their looted art, without having 
to go to each museum individually. But its utility is compromised by 
what the AAMD itself calls outdated technology and software. It is 
important for AAMD to create a state-of-the art databased that can be 
readily accessible and has the information necessary for families to 
identify potential Nazi-looted art.
    But has been particularly disappointing that in the past ten years 
or so many American museums lost an appreciation for the Washington 
Principles and began to assert affirmative legal defenses, like the 
statute of limitations, and even to bring preemptive injunctive motions 
before claims were filed to defend against restitution claims, rather 
than have them decided on the merits. The U.S. unfortunately has no 
commission or panel to resolve disputes on their merits outside of 
court.
    Significantly due to the initiative of Ambassador Ronald Lauder, 
Congress passed in 2016 the HEAR Act (Holocaust Expropriated Art 
Recovery Act), which allows claimants to present a claim in court for 6 
years after the object has been located and identified and resets the 
clock for those cases when the object's location was known but the 
claim was barred by previously existing statutes of limitation. 
Interestingly, the AAMD supported passage. The goal of the HEAR Act was 
not to jump start an endless line of litigation in U.S. courts, which 
is expensive and time consuming, but to remove the main obstacle 
American museum board members use when faced with claims to their 
collection. The 6-year period should enable both sides to complete 
comprehensive research privately and jointly and to work out 
settlements, which could be either restitution or compensation, if that 
is what the parties choose. As a result of the HEAR Act, more and more 
museums are settling claims, and I hope this will continue over the 
next several years. But that does not mean museums will agree to every 
claim. The amount of evidence submitted on behalf of claimants remains 
critical to museums, and because there is no independent panel to 
resolve disputes, claimants will often be forced to go through lengthy 
and expensive court fights. The museums take the position that the 
"just and fair solution" called for by the Washington Principles does 
not mean simply giving contested art back


    Based upon the experience of the past 20 years by a number of 
countries under the Washington Principles, permit me to provide what I 
think are the best practices that should guide our ``Roadmap for the 
Future.''
    First, we now appreciate more clearly than 20 years ago, both that 
we must look beyond artworks alone, and that the looting/confiscation 
by the Nazis of art and cultural property must be given a wider 
definition than plain, outright theft. Germany's definition sets a 
standard other country could emulate. Many refugees seeking to escape 
Nazi Germany had to pay exit taxes and find expensive ways to leave and 
enter another country, and were forced to sell their artworks, cultural 
property, books and other possessions at bargain basement prices 
(``forced sales''). Others who were able to take some property out of 
Germany often had to sell them at far below their market value to 
sustain a new life for themselves and their families (``flight 
sales''). So, Germany defines a cultural asset to include items of 
historic, artistic or other cultural or identity building significance. 
They also define ``confiscation through Nazi persecution'' to include 
not only theft or stealing, but a loss of assets suffered as a 
"``result of forced sale, expropriation, and other means,'' and also to 
cover ``flight assets,'' where artworks and cultural property were sold 
out of necessity during time of economic hardship, without physical 
coercion, either in Germany or abroad.
    Second, thorough provenance research of public and private 
collections to identify possible Nazi-looted art is central to 
implementation of the Washington Principles, but it is demanding, time-
consuming, and expensive.
    The Netherlands serve as a model by expanding their research to 
include not only art acquired by their museums before or during the 
war, but also donations that came later and have suspicious gaps in 
their provenance. Germany likewise has set a standard by allowing 
private collections to receive government funds to conduct provenance 
research, if they will follow the Washington Principles if they 
discover possible Nazi-looted art in their collections. This requires 
more trained provenance researchers and more funds for museums to 
undertake time-consuming and costly provenance searches. I urge 
European governments to create special resources for their public 
museums to achieve this result.
    Almost all U.S. museums are private, with the exception of the 
National Gallery of Art in Washington, but they rely upon donations 
from donors and the general public. Some percentage of what they raise 
should be set aside for provenance research. In addition, universities 
in both the U.S. and Europe should provide multi-disciplinary courses 
to help train a large number of provenance researchers. Adequate 
funding for provenance research is essential. Germany to its credit has 
devoted additional money to help its museums. The AAMD believes that 
one of its biggest challenges is the absence of qualified researchers. 
Universities should develop courses in art provenance research to teach 
the cross-section of law, art research and history, and build up a body 
of experts.
    Austria and Germany have set positive examples of conducting 
research at all levels, leading to restitution of books and objects of 
lesser financial value, but of powerful meaning to the families from 
which they were confiscated. Major museums in Europe and the U.S. have 
lesser works that are normally kept in storage and not exhibited. Only 
by provenance research can they see the light of day for potential 
claimants.
    Israel will shortly launch a nationwide program of provenance 
research for their museums and will provide public funding to train 
provenance researchers with international experts in the field.
    Third, descriptions of all the collections of public museums should 
be published on accessible websites, with accompanying provenance 
results, including not only the name and picture of the painting, but 
the object-level details on its provenance and previous owners, so they 
are accessible to potential claimants and art historians. This is not 
being done as completely as necessary. In the 21st century digital age 
there is no excuse for not providing the widest publication of 
databases.
    Fourth, certain states should begin to abide by the Washington 
Principles, including Hungary (where the possessions of Jewish victims 
were plundered during the War, with a pro-Nazi government) Poland and 
Spain, which agreed to the Washington Principles and Terezin 
Declaration, but have largely ignored them.
    Fifth, nations should treat all the public collections the same in 
diligently researching, identifying, and, where appropriate, 
restituting or compensating Holocaust survivors or their heirs. Public 
collections in France and the Netherlands should be treated the same as 
the French MNR and Dutch NK collections; both types of collections 
should be treated with equal diligence and in compliance with the 
Washington Principles.
    Sixth, all countries, which have Nazi-looted art in their public 
museums, should pass de-accession laws that will permit them to return 
any confiscated artworks in their possession to their rightful owners, 
and, to revise their laws to enable private museums to do the same.
    Seventh, the Washington Principles apply to and should be honored 
by private collections and the private art trade just as much as to 
public museums, and I call upon them to abide by them. This is 
especially the case where private collections accept public support for 
exhibitions and other activities. We can all gain inspiration by the 
decision of the Dutch royal family which returned a painting by a Dutch 
master purchased by Queen Juliana from a Dutch art dealer without 
knowing its tainted history. When the palace's investigation into the 
thousands of artworks in the collection of the House of Orange found 
convincing evidence, the painting had been the product of a forced sale 
to a Nazi bank in Amsterdam, they returned it to its rightful owner.
    European nations have not successfully addressed Nazi-looted art 
trade in private collections, which is being recycled through the 
European art trade. No private collector or private museum should want 
to keep or traffic in stolen goods, especially Nazi-looted art. Indeed, 
some are beginning to come forward proactively when they learn of the 
tainted provenance of their artwork.
    Knowingly trafficking in stolen goods may itself be a criminal 
violation. But the private art trade should self-regulate and encourage 
settlements between the original owners or their heirs and the current 
possessor of Nazi-looted art, even if local legislation protects the 
current possessor from ownership claims because of the passage of time. 
The positive way in which Germany handled the discovery of the Gurlitt 
collection is an example: establishing a special commission with 
international art experts from Israel and the United States to 
supplement their own members.
    The world's two largest auction houses, Christie's and Sotheby's, 
have set a global standard for the private art market. They have full-
time professionals and staffs to identify and refuse to sell suspect 
art consigned to them for sale, and to search for their rightful 
owners. Christie's has published Guidelines. They have had significant 
success in working out mutually agreeable solutions between the 
claimants whose families were victimized by the Nazis and the current 
possessors, often good faith purchasers. Christie's published 
Guidelines in 2009 for handling Nazi-era art restitution issues when 
identified in its assignments and sales. Through this approach, and a 
more informal but useful one by Sotheby's, a template has been created 
for successfully resolving Nazi-era issues between private parties. 
Major auction houses in continental Europe should adopt a similar 
policy, to cleanse the international art market of tainted goods. In 
addition, tax incentives could be considered to encourage private 
collectors to voluntarily come forward and resolve issues around Nazi-
confiscated art they may have unknowingly acquired, to make up for the 
loss they will suffer.
    The Art Dealers Association of America should encourage all of 
their members through their Code of Ethics to follow the Washington 
Principles, which would also ensure that the American private art 
market has the highest standards of transparency and integrity, and is 
not tainted by Nazi-looted art.
    Switzerland has made a good start in regulating their private art 
market, but it does not appear to apply to Nazi-looted Art. An article 
of the Swiss Federal Law on International Transfers of Cultural 
Property bans dealers and auctioneers from entering into an art 
transaction if they have any doubt as to the provenance of an object; 
notes that the burden of proof is partially transferred to the seller; 
and that the possessors of the artwork cannot rely upon the principle 
of good faith if they are unable to prove that they paid due attention 
at the time of acquisition. When establishing whether a work has 
tainted provenance, Swiss dealers should not take into consideration 
the protection that the passage of time may award to current possessors 
in Europe, but should act under the ``fair and just solutions'' 
principle of the Washington Principles and apply this to Nazi-looted 
art.
    The AAMD has pursued its own guidelines for its over 240 private 
museum members in the U.S. Over the years since the Washington 
Principles, the search for ``just and fair solutions'' has been 
conducted with museums, art dealers, and auction houses. Several 
methods have been used: negotiated settlements; litigation in courts 
followed by negotiated settlements; conciliation though the use of 
expert facilitators; mediation; and arbitration with arbitral awards. 
The new HEAR Act may promote more consensual agreements out of court.
    Eighth, nations with public museums should establish a point of 
contact for claimants to help them with their claims. The Holocaust 
Claims Office of the New York Department of Financial Services is one 
local example in the United States. If governments fund provenance 
research for their museums in disputed cases, they should provide 
funding for claimants as well.
    Ninth, there should be no time limit on bringing claims if the 
complete identification and location of the art is not previously 
known. Reasonable time limits should be set once the identity and 
location of the object is actually known. Likewise, there should be no 
sunset to the operation of the advisory panels which have been 
established; unless extended, the UK Spoliation Panel will soon go out 
of existence. I have every confidence its tenure will be extended, 
given its positive record.
    Tenth, decisions by the national panels should be posted in the 
internet, the reasons for their decision stated in detail, and 
translated into several languages, including English, so that they can 
serve as useful guideposts for future action.
    Eleventh, more engagement by the European Union would be very 
useful, while recognizing that member states retain sovereignty in 
cultural affairs. In 2014, the European Parliament and European Council 
passed a Directive (2014/60/EU) on the return of cultural objects 
unlawfully removed from the territory of a member state. In 2017, at 
the initiative of the European Parliament, the European Parliamentary 
Research Service identified a number of weaknesses within the EU legal 
system, including Nazi-looted art, where there were contradictory 
recommendations in cases of restitution claims of Nazi-looted art, and 
insufficient measures to control future transactions in the private 
market in Nazi-looted art. They helpfully recommend, among other 
measures, support for provenance research at the European level, and a 
general prohibition of the sale and acquisition of stolen and illegally 
exported and imported works of art and cultural goods, all to ``create 
a more certain EU legal system for restitution of claims of works of 
art and cultural goods looted in armed conflicts and wars.''
    In a positive and welcome step, the Committee on Legal Affairs of 
the European Parliament (2017/2023 INI) in an October, 2018 Draft 
Report that may be taken up by the full European Parliament in 
December, explicitly recognizes the Washington Conference Principles on 
Nazi-Confiscated Art; notes the legal barrier of families recovering 
their art, and that no EU legislation explicitly governs restitution 
claims for works of art and cultural goods looted; states that 
insufficient attention has been paid at the EU level to the restitution 
of works of art and cultural goods looted in armed conflicts; calls for 
the establishment of a responsible and ethical European art market; 
asks for the creation of a comprehensive listing of all Jewish-owned 
cultural objects plundered by the Nazis and their allies from the time 
of spoliation to the present day; urges the European Commission to 
support a cataloguing system to gather data on looted cultural goods 
and the status of existing claims; favorably notes the U.S. Holocaust 
Expropriated Art Recovery Act as an example of dealing with statutes of 
limitation that creates difficulties for claimants in restitution 
matters. Importantly, the Commission is called upon to develop common 
principles on access to public or private archives containing 
information on property identification and location and tying together 
existing databases about title to disputed properties, and to identify 
common principles on how ownership or title are established as well as 
rules of standards of proof. Last, it calls on Member States of the EU 
to make all necessary efforts to adopt measures which favor the return 
of Nazi-looted property, and that the return of artworks looted in the 
course of crimes against humanity to the rightful claimants is a matter 
of general interest.
    Twelfth, heirless art, where the identity of the owner of Nazi-
looted art cannot be identified, most likely because the owner was 
killed in the Holocaust, is directly covered by the ``just and fair 
solution'' standard of the Washington Principles, but presents daunting 
challenges. But with improved databases, more detailed provenance 
research, and more readily available genealogical information that 
could not be envisioned 20 years ago, additional efforts should be made 
to locate heirs. There are creative solutions which can be considered 
if no heirs are identified: using heirless art as an educational tool 
about the Holocaust through loans to Israel and other countries for 
exhibition; their designation when displayed as artworks confiscated 
from an unknown Jewish family during the Holocaust; and as in Austria, 
as a last resort, their sale, with the proceeds to go to Holocaust 
survivors.
    In any event, the ownership of heirless Nazi-confiscated art 
confiscated from Jews should not be with the current possessor or 
incorporated into their permanent collection of museums, so that if a 
claim is made in the future against the artwork, there will be no 
question it can be restituted. A solution to this difficult issue 
should be the product of a dialogue between the governments, their 
Jewish communities, international Jewish organizations, and the State 
of Israel.
    The Berlin Conference 20 Years Washington Principles: Roadmap for 
the Future gives us perhaps the last opportunity to get new energy and 
momentum behind fulfilling the promise of the Washington Principles. We 
must not turn our backs on Holocaust survivors and the memory of the 
six million Jews and millions of others who perished. We must not let 
history's verdict on us be one of disappointment that we failed to 
fulfill the commitments we made to the Washington Principles and 
Terezin Declaration. We have come so far in the right direction in the 
past 20 years. Now is the time to rise to the challenge by going the 
rest of the way. We can do it. We must do it.



    First of all, I would like to thank the Helsinki Commission for 
inviting me to speak at this very important briefing.
    Today I am speaking as a master in international politics, former 
political adviser, former elected official, political activist and 
child of Congolese migrants. My academic background, my work experience 
and my migration background form the basis of my work and the statement 
that I will make today.
    In my statement I will talk about the Belgian colonial past, how it 
is dealt with in Belgium and what steps have already been taken in 
order to address historic wrongs, heal wounds, bridge divisions, and 
build a shared future.
    First of all, I would like to point out that the Belgian political 
system is a complex system with several regions (Flemish, Wallonia and 
Brussels region), three different parliaments, and three different 
governments. The history of colonization and the relationship between 
the different regions and the former colonies is very different. This 
also determines the tone with which politics deals with the colonial 
past.

When we talk about colonization

    When we talk about the colonization of Belgium in Africa, we mainly 
talk about the Democratic Republic of Congo. From 1885 to 1907 Congo 
was the private property of the Belgian King Leopold II and from 1907 
to 1960, a Belgian colony. But let us not forget that between 1922 and 
1962, Rwanda and Burundi were areas of Belgium's mandate. \1\
---------------------------------------------------------------------------
\1\  Historians believe that the Belgian colonial system and the strict 
separation between Hutus and Tutsis they facilitated was one of the 
causes of the Rwandese genocide in 1994. Therefore, the Belgian 
government should apologize for that.
---------------------------------------------------------------------------
    The Belgian colonization in Congo was a system based on the 
superiority of the white race to the black one. A handful of Belgians 
had control over an area 70 times larger than Belgium. The system was 
also based on racial segregation mainly in cities where the black 
Congolese population did not have access to the same areas as the white 
population. Violence was a daily occurrence for the Congolese. During 
the period of Leopold II, people's hands were cut off in some places 
when they did not reach their rubber quota, villages with rebellious 
Congolese were burned down, women were raped, and the strong men were 
captured. During the Belgian colonization, disobedient Congolese or 
insurgents were abused (whipping) and in some cases thrown into prison.

The main players in the colonization story were the:

    <bullet>  Catholic Church: whose goal was to ``win souls'' and save 
the Congolese from their pagan religions.

    <bullet>  big banks/wealthy (mostly Wallonial) families and 
entrepreneurs: that made a profit from the raw materials/natural 
resources that were extracted from Congo.

    <bullet>  Belgian Royal family: that made their fortune with 
Congolese money and the inheritance of the Belgian King Leopold II

    These actors are the ones who maintained the colonial system for 
many years and benefited most from it.

General omission

    75 years of brutal repression has left enormous scars on the 
Congolese population. The fear of repression has caused many Congolese 
people in Congo and from the diaspora to remain silent for a long time 
about the impact of colonization on their lives and the lives of their 
ancestors.
    Belgium, too, has for a long time remained silent about the 
atrocities that were committed in Congo. Not only out of shame, but 
also because for a long time people believed that the colonization was 
a civilization mission. It is not for nothing that many history books 
in Belgium do not mention colonization or, when they do, focus on the 
achievements of the Belgians (roads, health care and education). This 
general omission in Belgian society made people for a long time believe 
that colonization was not that bad after all.

The past years there has been a change in the way we look at 
colonization in Belgium. There are several reasons for this:

Generational differences: The first generation of Congolese in Belgium 
                    did not really feel Belgian and did not really care 
                    about the past (with a few exceptions). The 2d 
                    generation, like myself, has become aware of the 
                    fact that in education the shared history that 
                    Congo has with Belgium has been taught in a limited 
                    way. This generation has started to question the 
                    role of Belgium in Congolese colonization. Not only 
                    do we question the role of Belgium in colonialism 
                    but we also ask for recognition and reparation for 
                    our Congolese ancestors.

Systematic racism on black people in Belgium: The systematic racism 
                    that black people experience in Belgium has its 
                    roots in colonization and this has been proven by a 
                    number of studies. The best known study is that of 
                    the King Baudouin Foundation, \2\ which proved, 
                    among other things, that structural racism in the 
                    labour market has to do with the stereotypes 
                    created about black people during colonization. 
                    These stereotypes live on in people's minds, either 
                    consciously or unconsciously. The recent U.N. 
                    report \3\ (on the human rights of people of 
                    African descent in Belgium) confirms a number of 
                    issues that were addressed in that study.

\2\  https://www.kbs-frb.be/en/Newsroom/Press-releases/2017/20171122AJ
\3\  https://www.ohchr.org/EN/NewsEvents/Pages/
DisplayNews.aspx?NewsID=24155&LangID=E
---------------------------------------------------------------------------
A number of books and documentaries have been made in recent years. 
                    Examples: the book by David van Reybrouck ``Congo: 
                    the epic history'' (2010) and the documentary 
                    children of the colony in the Flemish media (2018). 
                    \4\
---------------------------------------------------------------------------
\4\  https://www.vrt.be/vrtnws/en/2018/12/11/british-paper-reports-on-
vrts-congo-documentary-series/

The question of the metis children (mixed raced children): A change in 
                    the adoption laws revealed that different metis 
                    children born during the colonization to a white 
                    father and black mother were kidnapped, sent to 
                    boarding schools in Rwanda and/or Congo and after 
                    the independence of Congo were sent to Belgium to 
                    be adopted by new families where they lost their 
                    identity. These issues led to the first resolution 
                    and apologies to this group by the Belgian prime 
---------------------------------------------------------------------------
                    minister in 2019.

Reparations

    When you break something that doesn't belong to you, you need to 
repair it or pay it back. It is no secret that colonization has broken 
the DNA of Congolese culture and has put a hold on the development of 
the population in Congo itself. Some people are scared only by hearing 
the word reparation but if we want to heal wounds, build bridges and 
build a shared future repairing what was broken in the past is 
indispensable.

Some steps have been made to address the historical wrongs of the 
Belgian colonization in Congo:

Education: The first step to address a historical wrong is 
                    acknowledging and teaching it. On the Flemish side 
                    the Minister of Education stressed the importance 
                    of changing the narratives when teachers talk about 
                    colonization and include the suffering of the 
                    Congolese people. Only focusing on the 
                    accomplishments of the Belgians in Congo is no 
                    longer acceptable in 2019. She introduced some new 
                    directives for the schools in Flanders. There are, 
                    however, a number of limitations to directives. The 
                    different school networks are free to design these 
                    lessons about colonization. The teachers also have 
                    the freedom to decide how extensively they will 
                    talk about colonization. So, it is also encouraged 
                    to talk about diversity and how to deal with it in 
                    the teachers training. It is a small but important 
                    step in the recognition of the suffering of the 
                    Congolese and the impact of Colonization on the 
                    current Congolese diaspora.

Politics: As a political adviser, I worked on the resolution of the 
                    metis children. In that resolution the government 
                    urged reparations for the metis children. The 
                    resolution led to apologies from the prime minister 
                    and concrete actions (opening the archives, helping 
                    the metis find their families and give them 
                    financial help to go back to the former colonies to 
                    find their families). The work of the Belgian 
                    government has been on hold since the last 
                    elections. We will need to wait for the next 
                    government to see how the policy for metis families 
                    will be implemented.

While apologies for colonization have been given by individual 
                    politicians, an apology by the Belgian government 
                    for colonization hasn't been given yet. The mayor 
                    of Brussels f.e. apologized for colonization and 
                    also inaugurated the Lumumba Square as a symbolic 
                    gesture to the Congolese diaspora living in 
                    Belgium.

After the various studies and the realisation that the impact on the 
                    Congolese diaspora is large (racism in Belgium 
                    today), there was a consensus among different 
                    political parties to discuss colonization in 
                    different political hearings. These hearings should 
                    take place after the inauguration of the 
                    government, which is currently in the process of 
                    being set up following our recent elections. With 
                    the exception of two parties, all parties are 
                    convinced that talks on reparations will form an 
                    important part of these hearings.

What is also hindering this process is the fact that various parties 
                    want to avoid a constitutional crisis. In which the 
                    Flemish nationalist party uses the issue to attack 
                    the royal family in order to force a split in 
                    Belgium. That is why it has been radio silent at 
                    the side of the royal family around the issue. The 
                    King has already recognised in the past that 
                    Congolese soldiers had fought during the World Wars 
                    and those soldiers should not be forgotten in 
                    history. But he has not yet spoken a word on 
                    colonization. Also, when we talk about reparations 
                    the fear of the financial cost that it can bring is 
                    something the people that benefited the most from 
                    colonization want to avoid at all cost.

    When we talk about reparations, we also have to talk about 
restitution of stolen art. The director of the new Africa Museum in 
Tervuren already mentioned that this would be the next step. However, 
this also depends on the conditions of the museum in Congo and the 
protection of some art. The stolen art work in the Museum is 
controversial. The director however tries to connect old colonialists 
with members of the Congolese diaspora to bridge divisions and create a 
mutual understanding of the shared history.

Conclusion

    As a Belgian of Congolese origin who has worked on colonization and 
reparation in recent years, I have been able to learn a lot about the 
issue and think about how we can deal with the colonial past and build 
a future with respect and recognition for the victims of the colonial 
system.

Dialogue: It is important to enter into a dialogue with each other. For 
                    example, young people from the diaspora and former 
                    colonialists can enter into a dialogue with each 
                    other about the shared history. It is not our story 
                    vs their story but it's our shared history.

Recognition: starting with recognition is important. We must 
                    acknowledge that colonization, such as slavery, 
                    were racist systems that benefited one group and 
                    marginalized others. But the most important thing 
                    is recognizing that until today it has had an 
                    impact on marginalized groups. To say that people 
                    just have to get over it is to turn a blind eye to 
                    the racism that black people are facing today. We 
                    can only find a solution to the racism that black 
                    people are experiencing today when we look at the 
                    causes.

Knowledge: knowledge about colonization (and what Congo looked like 
                    before colonization) is limited. When people 
                    (elected officials or the public opinion) have no 
                    knowledge about colonization, it is difficult to 
                    get them interested in resolutions or legislation 
                    about it. As a parliamentary assistant and 
                    political adviser, it was my duty to explain to all 
                    the elected officials of my party about 
                    colonization and its impact on the Congolese 
                    population. Demonstrating that the colonial system 
                    is separate from individual stories of people 
                    during colonization is important, as not to 
                    demonize every colonizer. It is also important to 
                    explain how the racial injustice of today is based 
                    on the colonial system.

Reparations: It's hard to talk about reparations. Reparation is about 
                    fighting racial inequalities created by political 
                    systems that in the past were maintained by a 
                    privileged group. Hearings to determine exactly 
                    what this recovery means are therefore necessary. 
                    In Belgium, the critics of reparations are going to 
                    say that they do not want to pay out money to a 
                    corrupt country like Congo. But recovery is also 
                    about racial inequality in Belgium. What if we 
                    finance programmes that, for example, aim to 
                    provide better health care for the black population 
                    who, according to studies, are more affected by 
                    certain diseases? What if we eliminate inequality 
                    in education by means of targeted programmes? 
                    Reparations is about more than handing out cheques 
                    to the black population. It is about eliminating 
                    inequalities. That is why it is more than 
                    necessary.

Dialogue and knowledge about colonization: Recognition and reparations 
                    are the key elements to address historic wrongs, 
                    heal wounds, bridge divisions, and build a shared 
                    future. I believe this is the key to a future where 
                    we fight inequality by understanding and addressing 
                    the past.

Thank you
Tracy Tansia Bibo


    Chairman Hastings, Co-Chairman Wicker, and Honorable Members of 
this Commission,
    Thank you for convening this session on an issue that is both 
agonizingly difficult and vitally important: What measures can help 
bridge social divisions borne of historic wrongs against members of an 
ethnic, racial, religious, or other group? When I speak of ``historic 
wrongs,'' I am referring to periods in a nation's history when 
individuals have suffered exceptionally grave and systemic harms.
    Experience in many countries has shown that, unless they are 
adequately addressed, historic wrongs leave deep wounds, whose toxic 
legacy afflicts not only victims but whole societies. This insight is 
central to the field of transitional justice, in which I have worked 
for 30 years.
    Experience has shown that, while each society must address the dark 
chapters of its past in light of its unique experience, we can benefit 
enormously from studying other countries that have had to work through 
traumatic periods in their own past.
    In that spirit, I would like to share lessons from the experience 
of Bosnia-Herzegovina, which saw brutal ethnic violence as Yugoslavia 
imploded in the 1990s. \1\
---------------------------------------------------------------------------
\1\  These observations are developed in greater depth in DIANE 
ORENTLICHER, SOME KIND OF JUSTICE: THE ICTY'S IMPACT IN BOSNIA AND 
SERBIA (Oxford University Press 2018), at https://
global.oup.com/academic/product/some-kind-of-justice-
9780190882273?cc=us&lang=en&#.

---------------------------------------------------------------------------
Bosnian Efforts to Address Wartime Atrocities 

    So far, efforts to address ``ethnic cleansing'' in Bosnia have 
centered on the work of an international criminal tribunal based in The 
Hague. In addition to its own work, the Hague Tribunal helped catalyze 
domestic war crimes prosecutions in Bosnia, Serbia, and other former 
Yugoslav countries.
    The justice many survivors have found in these courts has been 
precious beyond measure. But prosecutions did not foster reconciliation 
among Bosnia's major ethnic groups--nor, I would add, should we expect 
them to. In the past decade, ethnic tensions in Bosnia have soared, and 
are now alarmingly high.
    Those tensions are reflected in, and exacerbated by, a toxic 
syndrome of denial of wartime atrocities. As in other countries that 
have failed to reckon with their past in a forthright fashion, 
denialism takes many forms in Bosnia. Let me mention five:

    <bullet>  The first is outright factual denial by government 
leaders, political elites, and ordinary citizens that members of their 
own ethnic group committed atrocities against members of other ethnic 
groups.
    <bullet>  The second is minimization of the extent or nature of 
those atrocities, such as when Serb elites acknowledge that Bosnian 
Serbs killed a large number of Muslims in Srebrenica but insist that 
number has been vastly exaggerated.
    <bullet>  The third is justifying atrocities committed by one's in-
group by, for example, characterizing genocidal crimes as acts of self-
defense.
    <bullet>  The fourth is celebrating convicted war criminals 
belonging to one's own ethnic group as heroes.
    <bullet>  The fifth is practicing silence about atrocities so grave 
as to demand recognition and redress.
    A variation on this last form of denial that has pained survivors 
of wartime atrocities has been a pattern of local Bosnian officials 
denying victims the right to establish even modest memorials to their 
suffering, such as placing a plaque at the site of a notorious 
detention camp.
    Bosnian survivors experience these and other instances of denial as 
a tormenting and continuous harm. And more to the point of this 
briefing, the social effect of pervasive denial has been to further 
inflame ethnic divisions.

Acknowledgment 

    I do not believe Bosnia can become unified in any meaningful sense 
until public officials and other elites, as well as ordinary citizens, 
acknowledge the full extent of atrocities committed by members of their 
in-group and unequivocally condemn their crimes.
    To be sure, there have been significant ``moments'' of 
acknowledgment since the conflict in Bosnia ended, when regional 
leaders publicly recognized the harm their in-group inflicted and 
expressed genuine remorse. These gestures were welcomed by survivors, 
providing at least a momentary glimpse of the healing potential of 
apologies that are rooted in the establishment and acceptance of 
historic facts and carry the promise of further measures of repair.
    But their promise has been betrayed by subsequent denialism.
    A dramatic example involves the Srebrenica genocide, whose 24th 
anniversary was observed last week. In 2004, a commission established 
in Bosnia's predominantly Serb entity, Republika Srpska (RS), issued a 
report identifying almost 8,000 victims of Srebrenica as well as dozens 
of previously unknown mass graves. Soon after, the RS president, Dragan 
Cavic, acknowledged the extent of the massacre and condemned it 
unequivocally. His televised remarks concluded: ``I have to say that 
these nine days of July of the Srebrenica tragedy represent a black 
page in the history of the Serb people.'' Several months later, the RS 
government issued an apology. At that moment, the official RS narrative 
about Srebrenica seemed to align with what its victims knew to be true.
    But this fragile achievement was soon undermined by extreme 
nationalist rhetoric, and ethnic narratives about the 1990s conflict 
have once again radically diverged. Last August, the RS parliament 
annulled the 1994 report and established a new commission to revisit 
the question of what happened in Srebrenica.
    In this generally bleak setting, some Bosnians have reached across 
the ethnic chasm and developed local efforts to acknowledge and condemn 
wartime atrocities. These grassroots efforts build from the premise 
that, if Bosnian leaders are not yet ready to face the past, its 
citizens can and must do what they can, where they can.

Lessons from Bosnia and Elsewhere 

    In closing, I want to note several takeaways.
    First, social divisions rooted in historic wrongs cannot mend 
without an honest reckoning, including a robust acknowledgment and 
condemnation of the original wrongs and a determination to address 
their toxic legacies.
    Second, as important as it is to address historic wrongs, doing so 
can be painful and even polarizing. Thus it is important to approach 
the task with care as well as courage and persistence.
    Third, a wealth of social science research can help us undertake 
the hard work of reckoning in a smart and effective manner. This 
literature can and should be mined to help us understand the factors 
that animate resistance to facing past wrongs--and what it takes to 
change minds and dominant narratives.
    Fourth, both experience and research suggest that, as we try to 
come to terms with our own past, it is important to create 
opportunities that literally bring people together. Some of the local 
initiatives in Bosnia have done just that, and we have an inspiring 
example in the approach of the National Memorial for Peace and Justice 
in Montgomery, Alabama. The memorial includes a pillar representing 
every U.S. county where lynchings took place, each of which is 
inscribed with the names of known victims. In an inspired move, a 
duplicate pillar was made for each county, and the Equal Justice 
Initiative (EJI), which developed the memorial, issued an invitation to 
each county to claim its pillar. The very process of doing so 
meaningfully and constructively engages local communities with their 
own history. \2\
---------------------------------------------------------------------------
\2\  The memorial's web site explains the process and its purpose this 
way: EJI is inviting counties across the country to claim their 
monuments and install them in their permanent homes in the counties 
they represent. Eventually, this process will change the built 
environment of the Deep South and beyond to more honestly reflect our 
history. EJI staff are already in conversation with dozens of 
communities seeking to claim their monuments. EJI approaches these 
conversations--and all of our community education work--with thought 
and care. EJI shares historical and educational material with community 
members, encourages participation from communities of color, and works 
with partners to find an appropriate geographic location for each 
monument to ensure that the process of claiming monuments helps local 
communities engage with this history in a constructive and meaningful 
way.
---------------------------------------------------------------------------
    Fifth, even when there is resistance to, or disinterest, in facing 
a painful chapter in a society's past, effective media can dramatically 
alter public perceptions. I'm reminded here of the impact of Ava 
DuVernay's series, When They See Us. In light of the powerful response, 
many wondered why much of the public did not react sooner to the facts 
it dramatized, which have been known for years. The point is, DuVernay 
helped so many see those facts for the first time.
    Finally, we have to be strategic as well as creative, seizing the 
full potential of emergent opportunities without overburdening them. 
Sometimes, societies reach a turning point, perhaps a fleeting moment, 
when key sectors can take a step that was previously inconceivable, 
like recognizing the necessity of removing confederate monuments or at 
least beginning to explore the concept of reparations for slavery and 
its legacy, as Ta-Nehisi Coates' landmark essay stimulated many to do. 
\3\ The very doing of what is possible in the moment--taking down 
hurtful monuments, for example--can pave the way to the next stage of 
reckoning.
---------------------------------------------------------------------------
\3\  Ta-Nehisi Coates, The Case for Reparations, THE ATLANTIC, June 
2014, available at https://www.theatlantic.com/magazine/archive/2014/
06/the-case-forreparations/361631/.
---------------------------------------------------------------------------
    Effective measures of healing social rifts rooted in grotesque 
violations of human dignity are demanding. There are no easy fixes. But 
there are wise ones.

                                     <all>






  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
